<html>
<title> - ENSURING EFFECTIVE AND RELIABLE ALERTS AND WARNINGS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          ENSURING EFFECTIVE AND RELIABLE ALERTS AND WARNINGS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2018

                               __________

                           Serial No. 115-48

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
30-482 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5">[email&#160;protected]</a>                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Antwane Johnson, Director of Continuity Communications, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Ms. Lisa Fowlkes, Chief, Public Safety and Homeland Security 
  Bureau, U.S. Federal Communications Commission:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Mr. Benjamin J. Krakauer, Assistant Commissioner, Strategy and 
  Program Development, New York City Emergency Management, City 
  of New York, New York:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Peter T. Gaynor, Director, Rhode Island Emergency Management 
  Agency, State of Rhode Island:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Scott Bergmann, Senior Vice President, Regulatory Affairs, 
  CTIA:
  Oral Statement.................................................    33
  Prepared Statement.............................................    34

 
          ENSURING EFFECTIVE AND RELIABLE ALERTS AND WARNINGS

                              ----------                              


                       Tuesday, February 6, 2018

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel Donovan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Donovan, Payne, and Langevin.
    Also present: Representative Jackson Lee.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to review our ability to timely 
and effectively alert and warn the public in the case of an 
emergency. I want to welcome all witnesses here this morning on 
an issue that is vital to the protection of Americans--
effective and reliable alerts and warnings.
    The numerous disasters and terrorist attacks that we have 
witnessed over the past few months, have illustrated that 
timely communication is critical in an emergency situation, and 
the availability of critical information can help individuals 
protect themselves from harm's way.
    While some of us grew up in emergency alerts warnings 
through television, radio, and I am old enough to remember when 
they told us to get underneath our desks because there was a 
siren warning, many alerts today are also received through 
mobile devices, the internet, and even social media.
    Considering the technology advances that have been made 
over the past decade, we have high expectations for what our 
phones, tablets, and computers can do. At the very least, we 
expect that the alerts that come through our devices are 
timely, accurate, and only sent when necessary.
    During the Chelsea bombing in 2016, the New York City 
Emergency Management Department sent out three messages to the 
Chelsea neighborhood: One to alert individuals to shelter in 
place; No. 2, once the situation was cleared; and the third 
one, to solicit the public's help in locating the suspect.
    These messages helped protect individuals at a time of 
uncertainty. It was also reported that they were received far 
outside the target area.
    While it is difficult to obtain 100 percent accuracy, I am 
glad that the FCC voted last week to require the delivery of 
alerts to 100 percent of the target area identified by the 
alert system with no more than one-tenth of a mile overshoot. 
This kind of accuracy will help to deter warning fatigue.
    Unfortunately, there have been erroneous emergency alerts 
sent to the public that undermines the confidence in the system 
and the messages that are shared. We saw an example of this 
just this morning, when an alert that was supposed to be a 
test, instead warned multiple locations on the East Coast that 
a tsunami was on its way.
    In addition, the erroneous emergency alert issued by the 
State of Hawaii on January 13, 2018, warning residents and 
visitors of a ballistic missile threat inbound to Hawaii, has 
caused the same concern of ours. Because this incident occurred 
due to human error, I am interested in hearing about the 
training, certification to message or originators to ensure 
proper use of the system.
    In addition, I am interested in knowing more about the 
safeguards that should have been in place, and what, if 
anything, needs to be done on a Federal level to make sure that 
this never happens again.
    In addition, to improve the response to terrorist events, I 
encourage the FCC to take action on multimedia alerts. Many, 
too, want feedback and multilingual messaging to further the 
effectiveness of alerts and warnings.
    For example, if New York City Emergency Management was able 
to send a picture of the suspect directly to recipients' phones 
during the Chelsea bombing, or if recipients were able to 
respond to the message to report that they saw the Chelsea 
bomber, it may have led to a faster apprehension of the 
suspect.
    However, enhancements to the system will be meaningless if 
basic awareness of how to use the system is not met. 
Considering the current threat environment in the United 
States, evidenced by many incidents over the past few months, 
including two terrorist attacks in New York City, one in 
October and the other in December 2017, the accuracy and 
efficiency of wireless emergency alerts is critical. That way, 
when an eminent threat alert is sent, Americans can and will 
act accordingly to protect themselves and their loved ones.
    I want to thank our witnesses for being here today to share 
their expertise with us, and I look forward to our discussion.
    The Chair now recognizes my friend, the Ranking Member of 
this subcommittee, the gentleman from New Jersey, Mr. Payne, 
for an opening statement that he may have.
    [The statement of Chairman Donovan follows:]
                Statement of Chairman Daniel M. Donovan
                            February 6, 2018
    I want to welcome our witnesses here this morning to a hearing on 
an issue that is vital to the protection of Americans: Effective and 
reliable alerts and warnings.
    The numerous disasters and terrorist attacks that we witnessed over 
the past few months have illustrated that timely communication is 
crucial in an emergency situation, and the availability of critical 
information can help individuals protect themselves from harm's way.
    While some of us grew up with emergency alert warnings through 
television, radio, or even warning sirens, many alerts today are also 
received through mobile devices, the internet, and social media.
    Considering the technological advances that have been made over the 
past decade, we have high expectations for what our phones, tablets, 
and computers can do. At the very least, we expect that the alerts that 
come through on our devices are timely, accurate, and only sent when 
necessary.
    During the Chelsea bombing in 2016, the New York City Emergency 
Management Department sent out three messages to the Chelsea 
neighborhood to alert individuals to shelter in place, once the 
situation was cleared, and to solicit the public's help in locating the 
suspect.
    While these messages helped to protect individuals in a time of 
uncertainty, it was also reported that they were received far outside 
the target area. Although I understand that it is difficult to obtain 
100 percent accuracy, I am glad that the FCC voted last week to require 
the delivery of alerts to 100 percent of the target area identified by 
the alert originator with no more than 1/10th of a mile overshoot. This 
kind of accuracy will help to deter warning fatigue.
    Unfortunately, there have been erroneous emergency alerts sent to 
the public that undermines confidence in the system and the messages 
that are shared. We saw an example just this morning when an alert that 
was supposed to be a test instead warned multiple locations on the East 
Coast that a tsunami was on its way.
    In addition, there was the erroneous emergency alert issued by the 
State of Hawaii on January 13, 2018, warning residents and visitors of 
a ``Ballistic Missile Threat Inbound to Hawaii.'' I am very concerned 
that this will result in a lack of response to actual events and could 
cause individuals to opt out of receiving life-saving messages 
entirely.
    Because this incident occurred due to human error, I am interested 
in hearing more about the training and certification for message 
originators to ensure proper use of the system. In addition, I am 
interested to know more about the safeguards that should have been in 
place, and what, if anything, needs to be done at a Federal level to 
make sure that this never happens again.
    In addition, to improve the response to terrorist events, I 
encourage the FCC to take action on multimedia alerts, ``many to one'' 
feedback, and multilingual messaging to further the effectiveness of 
alerts and warnings. For example, if New York City Emergency Management 
was able to send out a picture of the suspect directly to recipients' 
phones during the Chelsea bombing, or if recipients were able to 
respond to the message to report that they saw the Chelsea bombing 
suspect, it may have led to a faster apprehension of a terrorist. 
However, enhancements to the system will be meaningless if basic 
awareness of how to use the system is not met.
    Considering the current threat environment in the United States 
evidenced by many incidents over the past few months, including two 
terrorist attacks in New York City in October and December 2017, the 
accuracy and efficiency of WEA is critical. That way, when an imminent 
threat alert is sent, Americans can and will act accordingly to protect 
themselves and their loved ones.
    I want to thank the witnesses for being here today. I look forward 
to our discussion.

    Mr. Payne. Good morning, and I would like to thank the 
Chairman Donovan for holding today's hearing to assess the 
state of our Nation's alert and warnings systems.
    Our ability to issue timely emergency alerts and warnings 
is an essential component of the National preparedness. We know 
when the public is warned early and given enough time to 
protect themselves and their property, we can limit the human 
toll and mitigate damage to our communities.
    Since the Federal Government began pursuing a National 
alert capability over 50 years ago, we have leveraged advances 
in technology to push alerts out to a larger population for the 
public more quickly. At the same time, the Federal Government 
has undertaken efforts to educate the public about alerts, 
warnings, and how important it is to respond to them.
    Ultimately, for the public alerts and the warnings to be 
effective, the public has to be able to trust them. This is why 
last month's false ballistic missile alert in Hawaii was so 
troubling. I am concerned that a single employee was able to 
issue an alert in the first place, and that it took nearly 40 
minutes to issue a false alarm message over their platform.
    That said, false alerts are not limited to Hawaii. During a 
routine test of the emergency alert system last month, a false 
alert announcing an emergency in Mars County, New Jersey 
interrupted programming for certain cable subscribers last 
month. After Hurricane Irma in Florida last year, an alert 
issued in error by a State employee directed residents to boil 
their water, causing hours of confusion.
    What these incidents have taught us is that we need 
enhanced trained and guidance for State and local governments 
that are authorized to issue emergency alerts through FEMA's 
Integrated Public Alert Warning System, or IPAWS.
    False alerting can be very dangerous, as it can lead to 
alert apathy, confusion, and unnecessary panic. Nevertheless, 
we should not allow these incidents to cloud the success of 
otherwise trustworthy emergency alert and warning systems.
    Wireless emergency alerts have been partially effective in 
keeping people out of harm's way where they are used to warn of 
inclement weather or a man-made attack.
    To date, 33,000 wireless emergency alerts messages have 
been disseminated. The majority of these messages have been 
weather-related and were instrumental in saving lives during 
last year's unusually active hurricane season and unprecedented 
wildfires.
    But it is important to note that the wireless emergency 
alerts were also sent after the Boston Marathon Bombing and the 
Chelsea bombing in New York to help law enforcement catch the 
terror suspects.
    As we evaluate the existing alerts and warning systems, I 
would be interested to learn what efforts are under way at the 
Federal, State, and local level, to integrate emerging 
technologies into alerts and warnings procedures.
    I look forward to engaging both panels about what has been 
working well with IPAWS and to gauge where improvement is 
needed. With that, I thank the witnesses for being here today, 
and I look forward to your testimony.
    I yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
              Statement of Ranking Member Donald M. Payne
                            February 6, 2018
    Good morning. I want to thank Chairman Donovan for holding today's 
hearing to assess the state of our Nation's alert and warning systems.
    Our ability to issue timely emergency alerts and warnings is an 
essential component of National preparedness. We know when the public 
is warned early, and given enough time to protect themselves and their 
property, we can limit the human toll and mitigate damage to our 
communities.
    Since the Federal Government began pursuing a National alerting 
capability over 50 years ago, we have leveraged advances in technology 
to push alerts out to a larger population of the public more quickly. 
At the same time, the Federal Government has undertaken efforts to 
educate the public about alerts and warnings, and how important it is 
to respond to them.
    Ultimately, for public alerts and warnings to be effective, the 
public has to trust them. This is why last month's false ballistic 
missile alert in Hawaii was so troubling. I am concerned that a single 
employee was able to issue the alert in the first place, and that it 
took nearly 40 minutes to issue a ``false alarm'' message over the 
platform.
    That said, false alerts are not limited to Hawaii. During a routine 
test of the emergency alert system last month, a false alert announcing 
an ``emergency'' in Morris County, New Jersey, interrupted programming 
for certain cable subscribers last month. After Hurricane Irma hit 
Florida last year, an alert issued in error by a State employee 
directed residents to boil their water, causing hours of confusion.
    What these incidents have taught us is that we need enhanced 
training and guidance for the State and local governments that are 
authorized to issue emergency alerts through FEMA's Integrated Public 
Alert Warning System or ``IPAWS''. False alerting can be very 
dangerous, as it can lead to alert apathy, confusion, or unnecessary 
panic.
    Nevertheless, we should not allow these incident to cloud the 
success of otherwise trustworthy emergency alert and warning system.
    Wireless Emergency Alerts have been particularly effective in 
keeping people out of harm's way, whether used to warn of inclement 
weather or a man-made attack. To date, 33,000 Wireless Emergency Alerts 
messages have been disseminated. The majority of these messages have 
been weather-related, and were instrumental in saving lives during last 
year's unusually active hurricane season and unprecedented wildfires.
    But it is important to note that Wireless Emergency Alerts were 
also sent after the Boston Marathon bombing and the Chelsea bombing in 
New York to help law enforcement catch terror suspects.
    As we evaluate the existing alerts and warnings system, I will be 
interested to learn what efforts are underway at the Federal, State, 
and local level to integrate emerging technologies into alerts and 
warnings procedures.
    I look forward to engaging both panels about what has been working 
well with IPAWS, and to gauge what needs improvement.
    With that, I thank the witnesses for being here today, and I look 
forward to their testimony.

    Mr. Donovan. The gentleman yields. Other Members of the 
subcommittee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            February 6, 2018
    Good morning. I want to thank Chairman Donovan and Ranking Member 
Payne, Jr. for their on-going to commitment to improving National 
preparedness and ensuring that our constituents have the information 
they need to stay safe when disaster strikes.
    When Hurricane Katrina struck the Gulf Coast in 2005, we saw first-
hand how the lack of a modern National emergency alert capability 
complicated the immediate response and recovery in the gulf States.
    Within a year of the storm, President Bush directed FEMA to 
accelerate the integration of modernize the aging Emergency Alerts 
System and leverage new technologies into its alerts and warnings 
platform, the Integrated Public Alerts and Warnings System (IPAWS).
    In the years since, IPAWS has evolved, pushing out alerts and 
warnings via televisions, radios, and cell phones. IPAWS is exploring 
opportunities to integrate new technologies, including networked 
devices.
    The program has increased the number of approved alert originators 
to ensure that State and local governments have the ability to properly 
issue warnings in their areas.
    Toward that end: Emergency alerts and warnings save lives, but only 
if the public responds to them.
    That means the alerts must be accessible to those with access and 
functional needs, available to those in urban and rural areas alike, 
and accurate so the public will heed the instruction.
    In the past, I have raised concerns about whether alerts and 
warnings are accessible to people with hearing or vision impairments, 
as well as those who do not speak English.
    I understand that lessons learned from previous tests of the 
Emergency Alert System have informed updates to the alerting system to 
make messages clearer for those with limited vision.
    I also understand that the IPAWS platform is currently capable of 
pushing out alerts and warnings in Spanish, and I am interested in 
learning whether that capability is being utilized and what efforts 
FEMA is undertaking to broaden the accessibility for those who cannot 
read or speak English or Spanish.
    Moreover, to ensure that emergency alerts and warnings are 
available to those who live beyond the reach of a cell tower, FEMA must 
continue to pursue novel approaches to alerts and warnings to reach 
those who are not watching TV or listening to the radio.
    Finally, alerts and warnings must be accurate.
    Last month's disturbing false alert about an incoming missile in 
Hawaii revealed gaps related to training, policy, and procedure for 
issuing alerts and warnings.
    I am not raising this issue to chase a headline or to shame the 
Federal or State agencies involved.
    Rather, I raise this issue because I am concerned that false alerts 
like the one issued last month could result in the public taking alerts 
and warnings less seriously, delaying response, or ignoring them all 
together.
    Every minute matters during a disaster, and we cannot afford to 
have the public wasting time questioning whether an alert is real 
before taking action.
    I look forward to learning how FEMA is updating its training, 
policies, and best practices to prevent additional false alerts in the 
future.
    With that, I thank the witnesses for being here today and I yield 
back the balance of my time.

    Mr. Donovan. We are pleased to have two very distinguished 
panels before us today on this important topic.
    On our first panel, Mr. Antwane Johnson serves as the 
director of Continuity Communications at the Federal Emergency 
Management Agency. In this capacity, he oversees the Integrated 
Public Alert and Warning System.
    Ms. Lisa Fowlkes serves as the chief of the Federal 
Communications Commission's Public Safety and Homeland Security 
Bureau. In this capacity, she manages the commission's 
responsibilities related to alerts and warnings, 9-1-1 systems 
and public safety communications.
    The witnesses' full written statements will appear on the 
record.
    The Chair now recognizes Mr. Johnson for his 5-minute 
opening statement.

     STATEMENT OF ANTWANE JOHNSON, DIRECTOR OF CONTINUITY 
   COMMUNICATIONS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Thank you, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee. My name, as mentioned, 
is Antwane Johnson, and I am the director of Continuity 
Commutations at FEMA. On behalf of Secretary Nielson and 
Administrator Long, thank you for the opportunity to discuss 
the Integrated Public Alert and Warning System, also known as 
IPAWS, and how it is used to save lives across the country.
    An effective and timely public alert and warning system is 
critical to communicating threats to the public, providing 
people with guidance during times of crisis.
    At FEMA we manage IPAWS and its two main components: 
Warnings and communications from the President in the event of 
a catastrophic National emergency through the National Public 
Warning System; and we manage geo-targeted alerts sent from 
Federal, State, local, and Tribal officials during emergencies 
such as those issued last year during hurricanes and wildfires.
    IPAWS allows those alerting authorities to send emergency 
messages to people in their geographic jurisdiction by 
emergency alert system broadcast through radio and TV, wireless 
emergency alerts to cell phones, broadcast from NOAA weather 
radios and other internet-connected services.
    Today, IPAWS supports more than 1,000 Federal, State, 
local, Tribal, and territorial users, more than 26,000 radio, 
TV, and cable connections, 63 cellular carriers' gateways 
reaching millions of cell phones, connections to NOAA 
dissemination systems, 73 internet vendors that tap into the 
alert feed.
    We established a connection between IPAWS and Canada's 
multi-agency situational awareness system for the exchange of 
disaster information between our countries.
    Since inception of the system in 2012, there have been 
nearly 3 million messages disseminated throughout IPAWS. These 
messages, which cover everything from a natural disaster or an 
active shooter, to missing children and planned power outages, 
help communicate critical life-saving information to the 
public.
    For example, after a camp manager in Windsor, Connecticut 
received a wireless emergency alert on her mobile device, she 
evacuated 29 children from a soccer dome just before an EF1 
tornado touched down and ripped the roof off.
    In 2016, New York City sent a wireless emergency alert with 
an electronic wanted poster to identify a suspect in connection 
with bombings in Manhattan and New Jersey. The suspect was 
captured within hours.
    Last year, wireless emergency alerts were used by officials 
to issue warnings and evacuation orders in Texas, Florida, and 
California in response to hurricanes and wildfires.
    Significantly since 2012, 47 kidnapped children have been 
returned to their loved ones after an Amber Alert was issued 
through the system. Members of the community help law 
enforcement locate perpetrators.
    In addition to managing the IPAWS program, FEMA helps train 
users and create guidance for alerting authorities and software 
tool vendors.
    It is important to note that while FEMA manages the IPAWS 
system, we rely on our State and local partners to originate 
communications to their jurisdictions, as they are the boots on 
the ground that are best able to communicate the threats they 
face and provide specific protective action information related 
to their area.
    Following direction from Congress and the IPAWS 
Modernization Act of 2015, FEMA has established a subcommittee 
to the National Advisory Council.
    The subcommittee includes members from State, local, 
Tribal, and territorial governments, communication service 
providers, organizations representing individuals with access 
and functional needs or limited English proficiency and others. 
This subcommittee is consulting with IPAWS users and experts to 
consider new and developing technologies that may be beneficial 
to IPAWS and the Nation.
    The subcommittee will develop recommendations on matters 
related to common alert and warning protocols, standards, 
terminology, and operating procedures. Through this 
subcommittee we are looking at recent uses of the system, 
including use during the 2017 natural disasters, as well as the 
false alert in Hawaii, to identify lessons learned.
    In addition to this holistic review, there are some key 
areas in which the IPAWS program is focused for the future. 
First, we have been engaging vendors of IPAWS-compatible 
software to encourage better integration of IPAWS screens for 
consistency and creating of effective alert and warning 
messages.
    In collaboration with the partners, we are continuing to 
promote adoption and use of IPAWS by public safety officials. 
We make sure that State, local, Tribal, and Government 
officials are aware of our IPAWS lab for testing, to ensure 
they can maintain proficiency and understand the proper use of 
the system.
    I look forward to continuing to work with Congress and 
provide updates as we move forward with recommendations to 
continue to modernize the system and our procedures.
    I am grateful for the opportunity to appear before you 
today, and I am happy to respond to any questions this 
subcommittee may have at this time. Thank you.
    [The prepared statement of Mr. Johnson follows:]
                 Prepared Statement of Antwane Johnson
                            February 6, 2018
                              introduction
    Good morning Chairman Donovan, Ranking Member Payne, and Members of 
the committee. My name is Antwane Johnson, and I am the director of 
continuity communications within the National Continuity Programs 
Directorate (NCP) at the Federal Emergency Management Agency (FEMA). On 
behalf of FEMA Administrator Brock Long and John Veatch, the assistant 
administrator for NCP, I appreciate the opportunity to speak today on 
the importance of the Integrated Public Alert and Warning System 
(IPAWS), how it is used to save lives across the country, and the 
future of the IPAWS program.
                             what is ipaws?
    An effective, timely, and far-reaching public alert and warning 
system is critical to communicating threats to public safety and 
providing people with guidance during times of crisis.
    Executive Order 13407 and The IPAWS Modernization Act of 2015 
define FEMA's responsibility to provide a public alert and warning 
system. Section 706 of the Communications Act of 1934 requires 
Presidential access to commercial communications during ``a state of 
public peril or disaster or other National emergency.'' The Robert T. 
Stafford Disaster Relief and Emergency Assistance Act directs FEMA to 
provide technical assistance to State, local, Tribal, and territorial 
(SLTT) governments to ensure that timely and effective disaster warning 
is provided. In accordance with these statutes, IPAWS was created to 
enhance and extend a National infrastructure and capability to SLTT 
officials for public alert and warning.
    IPAWS is a National system for local alerting. There are two main 
system components:
    (1) IPAWS supports warnings and communications from the President 
        in the event of a catastrophic National emergency. The 
        President can reach the American people through the National 
        Public Warning System, where the message is transmitted through 
        FEMA Primary Entry Point (PEP) radio stations and Emergency 
        Alert System (EAS) radio, television, and cable stations.
    (2) IPAWS also supports geo-targeted alerts sent from Federal and 
        SLTT officials during emergencies, such as those issued last 
        year by Florida and Texas, in anticipation of Hurricanes 
        Harvey, and Irma.
    These Federal and SLTT alerting authorities can, via the ``IPAWS 
OPEN'' gateway, send emergency messages to people in their geographic 
jurisdiction by radio and TV Emergency Alert System (EAS) broadcasts, 
Wireless Emergency Alerts (WEA) to cell phones, broadcasts from 
National Oceanic and Atmospheric Administration (NOAA) Weather Radios, 
and other IPAWS internet-connected services. The DHS Science and 
Technology Directorate (S&T) conducted research to improve geo-
targeting capabilities and public response to alerts and warnings, 
through funding provided by the Department of Commerce's National 
Telecommunications and Information Administration. Today, IPAWS 
supports more than 26,000 radio, TV, and cable EAS connections, 63 
cellular carrier gateways reaching millions of cell phones, connections 
to NOAA dissemination systems, and 73 internet application vendors that 
tap into the IPAWS alert feed.
    States determine who their State alerting authorities are, and 
validate requests from potential local alerting authorities to gain 
access to the IPAWS. A profile is created in the system for each 
validated authority describing the geographic jurisdiction, types of 
alerts, and which alert dissemination systems will be used by the 
authority. Following completion of required FEMA-developed training by 
the authority, access to send alerts directly through IPAWS to people 
is turned on. This training provides skills to draft effective and 
accessible warning messages, and best practices in effective use of the 
Common Alerting Protocol. In addition to the initial training, in June 
2014 FEMA released an advanced course to further develop these skills 
among alerting authorities. Messages that match the authorities profile 
pass automatically through the system to EAS, WEA, and the other alert 
dissemination systems to TV, radio, and cell phones.
    IPAWS supports ``broadcast'' type alert and warning services. 
Unlike subscription based-alert services, warnings are sent to all 
people located in a specified area, both residents and visitors.
    FEMA is responsible for development, operation, integration, and 
maintenance of IPAWS infrastructure, which includes the EAS, WEA, NOAA, 
and IPAWS Alerts Feed components plus any future connections. IPAWS was 
designed so it can easily adapt to technological advances.
    As of January 2018, there are 1,026 total IPAWS public alerting 
authorities. Since its inception in 2011, more than 2.7 million alert 
messages have been processed by IPAWS.
    Authorities have used IPAWS connections to successfully alert 
people of a wide variety of threats to public safety. This includes, 
but is not limited to: Natural disasters, gas plant explosions and 
evacuations, armed robbers, active shooters, dangerous water 
advisories, 9-1-1 service outages, and electrical power outages.
                              amber alerts
    In 2003, President George W. Bush signed the Prosecutorial Remedies 
and Other Tools to end the Exploitation of Children Today (PROTECT) Act 
of 2003 (Public Law 108-21). This Act established the National 
coordination of State and local programs, including the development of 
guidance for issuance and dissemination of AMBER alerts.
    The National Center for Missing & Exploited Children (NCMEC) is 
responsible for America's Missing: Broadcast Emergency Response (AMBER) 
plan, which allows broadcasters and transportation authorities to 
immediately distribute information about recent child abductions to the 
public and enables the entire community to assist in the search for and 
safe recovery of the child.
    The AMBER Alert program is a voluntary partnership among law 
enforcement agencies, broadcasters, transportation agencies, and the 
wireless industry to activate an urgent Wireless Emergency Alert in the 
most serious cases of child abduction.
    Since the AMBER alert program's inception, nearly 50 children 
across the country have been safely returned to their families as a 
direct result of these WEAs.
      ipaws use during recent hurricanes, wildfires, and mudslides
    For the three major hurricanes in 2017--Harvey, Irma, and Maria--
nearly 700 emergency messages were sent via IPAWS by both the National 
Weather Service and State and local alerting authorities.
    Prior to Hurricane Irma, State and local alerting authorities 
issued a series of timely WEA and EAS alerts to advise the public to 
take appropriate protective measures. The Florida Division of Emergency 
Management (FDEM) issued several evacuation alerts that facilitated the 
safe evacuation of nearly 6.5 million residents. FDEM issued IPAWS 
alerts on behalf of counties that were unable to issue an alert because 
they were not an authorized alerting authority, demonstrating State-
local coordination.
    For Hurricane Maria, FEMA IPAWS developed an innovate arrangement 
with SirusXM to deploy satellite radios to Puerto Rico. Extensive 
efforts by the IPAWS project management office successfully kept PEP 
stations broadcasting in Puerto Rico to provide critical response and 
recovery information to the island's residents. These efforts included 
coordination of fueling where power was unavailable, and providing 
technical assistance to ensure the PEP stations remained up and 
running. In the U.S. Virgin Islands, FEMA IPAWS had primed the backup 
generator for the PEP station 2 years ago and had replaced the fuel 
tank generator and fuel distribution systems in June 2017. This 
continued maintenance allowed for radio broadcasts and alerts to be 
sent to residents in the U.S. Virgin Islands through this station while 
the power was out following Hurricane Irma.
    In October 2017, WEAs were issued to warn California residents 
about the wildfire danger. No fatalities were recorded in counties that 
issued these alerts, suggesting the warnings may have helped save 
lives. This event highlighted a few strengths as well as areas for 
improvement. Strengths include some local authorities using a variety 
of warning and communications methods to reach as many people as 
possible, including WEAs, police sirens, opt-in reverse 9-1-1 and text 
alerts, door-to-door notifications and social media. Areas for 
improvement include the regular testing of IPAWS to ensure the system, 
and user access, is operational and working correctly. One alerting 
authority's user access was recently updated and was not tested prior 
to attempted use during the wildfires, at which time it was discovered 
to have not worked. It has since been fixed.
    During the January 2018 flooding and mudslides in Southern 
California, 10 WEAs were sent: Five by the National Weather Service, 
three by Santa Barbara County, and two by the city of Los Angeles.
               implementation of ipaws modernization act
    The IPAWS Modernization Act of 2015 (Pub. L. 114-143) directs FEMA 
to implement and modernize the IPAWS and to establish an IPAWS 
subcommittee under the National Advisory Council (NAC). This council 
advises the administrator on all aspects of emergency management to 
ensure input from and coordination with State, local, Tribal, and 
territorial governments, non-profit organizations, and the private-
sector communities on the development and revision of plans and 
strategies.
    Additionally, the law directs the IPAWS subcommittee to consult 
with users and experts to consider new and developing technologies that 
may be beneficial to the public alert and warning system; develop 
recommendations for IPAWS and submit a recommendation report to the NAC 
for approval. The recommendations will be on matters related to common 
alerting and warning protocols, standards, terminology, and operating 
procedures. The subcommittee will also make recommendations to the NAC 
on having the capability to adapt the distribution and content of 
communications based on locality, risks, or user preferences. As 
outlined in the law, the subcommittee will terminate no later than 
April 2019.
    FEMA announced the IPAWS subcommittee membership in July 2017. 
Membership includes participants from: State, local, and Tribal 
governments and emergency management agencies; communications service 
providers; third-party service bureaus; commercial mobile radio service 
industry; satellite industry; organizations representing individuals 
with access and functional needs and limited English proficiency; 
privacy advocates; and senior Federal leaders. The subcommittee members 
are divided into four working groups, focused on: Alert writers and 
alerting authorities; public needs; stakeholder engagement and 
coordination; and future technologies.
    As of January 2018, the working groups have held 31 webinars, with 
39 guest speakers presenting to subcommittee members. These guest 
speakers include educators and researchers, State and local alerting 
authorities, and private-sector partners to help inform the 
recommendations.
    The subcommittee will continue developing and refining 
recommendations in the coming months, in order to present draft 
recommendations to the NAC in fall 2018. The subcommittee will also 
take into consideration recent uses, including best practices and 
lessons learned, when developing the recommendations. Once a draft is 
complete, the subcommittee will work with the NAC to develop the final 
approved recommendations to present to the FEMA administrator.
                   ipaws program goals and challenges
    As the subcommittee recommendations to the NAC are still being 
developed, there are some key areas in which the IPAWS program is 
focused for the future.
    The IPAWS program office has been engaging vendors of IPAWS-
compatible software to encourage better integration of IPAWS screens 
for consistency and creation of effective public alert and warning 
messages.
    The program will continue to promote adoption and use of IPAWS by 
emergency management and public safety officials. Through the IPAWS 
Stakeholder Engagement and Customer Support teams, the program works 
with State, local, Tribal, and territorial officials to promote use of 
the system. IPAWS also provides information and support on various 
Federal grant programs that may be able to provide funding for alerting 
authorities to purchase alerting software that interfaces with IPAWS.
    IPAWS will also continue to make SLTT emergency managers aware of 
the ``IPAWS Lab.'' This lab, located at the Naval Surface Warfare 
Center in Indian Head, Maryland, provides alerting authorities with 
test and evaluation, operational assessments, IPAWS demonstrations, and 
expert technical support. The lab provides an interactive and closed 
IPAWS testing environment, and allows users the opportunity to practice 
and train to increase familiarity and confidence using IPAWS.
    In accordance with new WEA rules established by the Federal 
Communications Commission (FCC) in 2016, IPAWS is working with wireless 
carriers and alerting software vendors to enhance WEA capabilities 
based on research conducted by S&T. This includes creating room for 
more detailed information in messages, allowing links to instructions 
and images, Spanish language support, and dedicated test message type 
for use by SLTT alerting authorities.
    The IPAWS Program Office continues to collaborate with our alerting 
authority partners to look for opportunities to incorporate best 
practices and lessons learned into program guidance and training.
                               conclusion
    Every day I am grateful for the opportunity to work with a program 
dedicated to helping alert and provide guidance to people during times 
of crisis. Thank you for your interest in the program and we look 
forward to collaborating with this subcommittee on ways the program can 
improve. I am happy to take any questions you have at this time.

    Mr. Donovan. Thank you, Mr. Johnson.
    The Chair now recognizes Ms. Fowlkes for 5 minutes.

 STATEMENT OF LISA FOWLKES, CHIEF, PUBLIC SAFETY AND HOMELAND 
    SECURITY BUREAU, U.S. FEDERAL COMMUNICATIONS COMMISSION

    Ms. Fowlkes. Good morning, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee. Thank you for the 
opportunity to appear before you to discuss our Nation's 
emergency alert systems.
    As I recently testified before the U.S. Senate Committee on 
Commerce, Science, and Transportation, the false ballistic 
missile warning issues on January 13 by the State of Hawaii was 
unacceptable. It resulted in wide-spread panic, and the 
extended period it took to correct the error, nearly 40 
minutes, compounded the problem.
    Looking beyond the immediate consequences of the mistake, 
which were serious in and of themselves, this cry of wolf 
damaged the credibility of alert messaging, which can be 
dangerous when a real emergency occurs. The commission acted 
swiftly to open an investigation into the matter. That 
investigation is on-going, however.
    The FCC's Public Safety and Homeland Security Bureau 
prepared a preliminary report at the commission's January 30 
open meeting. I have included the presentation made at the open 
meeting with my written statement for the record.
    But briefly, as the bureau reported, it appears that the 
false alert was the result of two failures, first, simple human 
error. Second, the State did not have safeguards or process 
protocols in place to prevent that human error from resulting 
in the transmission of a false alert. Moving forward, the 
commission will focus on ways to prevent this from happening 
again.
    Federal, State, and local officials throughout the country 
need to work together to identify any vulnerabilities to false 
alerts and do what is necessary to fix them. We also must 
ensure that should a false alert nonetheless occur, a 
correction is issued promptly in order to minimize confusion.
    Emergency alerting systems provide timely and life-saving 
information to the public, and we must take all measures to 
bolster and restore the public's confidence in these systems.
    The commission is also looking into the recent tsunami 
alerts issued following the 7.9 magnitude in the Gulf of Alaska 
on January 23 to better understand how the Wireless Emergency 
Alert System, or WEA, performed.
    While the incidents in Hawaii, and Alaska, and other places 
are very present in our minds, we cannot lose sight of the fact 
that wireless emergency alerts have greatly enhanced public 
safety.
    In the last 5 years, WEA has been used to issue over 35,000 
emergency alerts. Since WEA was first deployed in 2012, the 
commission has taken significant steps to enhance alerting 
capabilities by leveraging advancements in technology.
    Just last week, the commission voted to require 
participating wireless providers to deliver alerts in a more 
geographically precise manner. Specifically, participating 
wireless providers must deliver WEA alerts to the target areas 
specified by the alert originator, with no more than one-tenth 
of a mile overshoot by November 2019.
    This rule will help channel alerts to Americans who 
actually need them, while reducing over-alerting. Equally 
important, this rule will give alert originators the assurance 
they need to rely on WEA as a valuable tool to help save lives.
    The recent order also requires that WEA alert messages 
remain available in a consumer accessible format on wireless 
devices for 24 hours after receipt, or until the consumer 
chooses to delete the message. Other enhancements to WEA 
include Spanish language alerting and increasing the length of 
alert messages from 90 to 360 characters. These changes will 
strengthen the WEA system and keep Americans safer.
    We also continue to work to advance the integrity and 
utility of the traditional emergency alert system.
    Just this past December, for example, the commission 
adopted a new blue alert code that will allow State and local 
officials to notify the public of threats to law enforcement 
and help apprehend dangerous suspects. Blue alerts may be sent 
over both the EAS, which delivers warnings to the public via 
radio and television and WEA.
    Over the past several years, the FCC has also worked 
closely with FEMA to conduct Nation-wide tests of the EAS to 
assess its reliability and effectiveness. The most recent test 
was conducted last September, and our initial analysis shows 
improvements in most areas from the previous year.
    In closing, we look forward to partnering with emergency 
management professionals, industry, and our Federal partners on 
the alerting capabilities that they need to use America's 
public alert and warning systems with confidence during times 
of crisis.
    Thank you, and I look forward to any questions you may 
have.
    [The prepared statement of Ms. Fowlkes follows:]
                 Prepared Statement of Lisa M. Fowlkes
                            February 6, 2018
    Good morning, Chairman Donovan, Ranking Member Payne, and Members 
of the subcommittee. Thank you for the opportunity to appear before you 
to discuss our Nation's emergency alerting systems.
    As I recently testified before the U.S. Senate Committee on 
Commerce, Science, and Transportation, the false alert issued on 
January 13 by the State of Hawaii, in which recipients were warned of 
an imminent ballistic missile attack, was absolutely unacceptable. It 
resulted in wide-spread panic, and the extended period it took to 
correct the error--nearly 40 minutes--compounded the problem. Looking 
beyond the immediate consequences of the mistake, which were serious in 
and of themselves, this cry of ``wolf'' damaged the credibility of 
alert messaging, which can be dangerous when a real emergency occurs.
    The Commission acted swiftly in the wake of this incident to open 
an investigation into the matter. That investigation is on-going; 
however, the Public Safety and Homeland Security Bureau last week 
presented a preliminary report to the Commissioners at the FCC's 
January 30 Open Meeting, the presentation materials for which are 
attached to this written statement. Based on our investigation thus 
far, the Bureau finds that a combination of human error and inadequate 
safeguards contributed to this false alert.
    While the mistake was realized very quickly, it took 38 minutes for 
a correction to be issued through the alerting system.
    The Hawaii Emergency Management Agency has advised us that it is 
working with its vendor to integrate additional technical safeguards 
into its alert origination software, and has changed its protocols to 
require two individuals to sign off on the transmission of tests and 
live alerts to ensure that a similar incident does not happen again.
    The Commission is also looking into the recent tsunami alerts 
issued following the 7.9 magnitude earthquake in the Gulf of Alaska on 
January 23 to better understand how the Wireless Emergency Alert system 
performed. We are aware that questions have arisen about who received 
the alerts and who didn't, both with respect to carriers' participation 
in WEA and with respect to the geographic distribution of the alert, 
and we will seek answers.
    Moving forward, the Commission will focus on what steps need to be 
taken to prevent an incident like the one in Hawaii from happening 
again, and will issue a final report at the conclusion of our 
investigation. Once issued, we will work with FEMA to engage in 
stakeholder outreach, and encourage the use of best practices. It will 
also be incumbent upon Federal, State, and local officials to work 
together to prevent such a false alert from happening again. We also 
must ensure that corrections are issued immediately after a false alert 
goes out in order to minimize panic and confusion.
    Emergency alerting systems provide timely and life-saving 
information to the public, and stakeholders must come together to take 
all necessary measures to bolster and restore the public's confidence 
in these systems.
    The incidents in Hawaii and Alaska are very present in our minds. 
But I would be remiss in not discussing the benefits of and success 
stories behind wireless emergency alerts. In this respect, I would like 
to describe the FCC's efforts to support Wireless Emergency Alerts, 
commonly known as ``WEA,'' since the system was deployed in April 2012.
    To provide you with the scope of its impact, in the last 5 years, 
WEA has been used to issue over 35,000 emergency alerts. The National 
Weather Service alone has sent well over 33,000 WEA alerts. For 
example, we understand that local California officials used WEA 4 times 
in response to the 2017 wildfires in Northern California, and 16 times 
for the Los Angeles area wildfires. Representatives from the California 
Governor's Office of Emergency Services and officials in Marin and 
Mendocino Counties reported successful use of WEA to move citizens in 
their jurisdictions to safety. WEA was also used extensively in all 
areas affected by the 2017 hurricanes, including 21 WEA alerts sent in 
Puerto Rico alone.
    WEA also helps to recover missing children. In 2016 alone, 179 
AMBER Alerts were issued in the United States involving 231 children. 
Since the system was deployed in 2012, WEA has been credited with the 
safe return of 47 missing children.
    The Commission places the highest priority on ensuring that 
emergency management authorities and first responders have the most up-
to-date alerting tools available to them. Since WEA was first deployed 
in 2012, the Commission has taken significant steps to enhance Federal, 
State, and local alert and warning capabilities to leverage 
advancements in technology.
    In September 2016, the Commission adopted rules to enable wireless 
alerts to contain more content by increasing message length from 90 to 
360 characters and by supporting embedded phone numbers and URLs. It 
also took action to enable support for alerts written in Spanish and 
make it easier for State and local authorities to test WEA, train 
personnel, and raise public awareness about the service.
    The Commission also recognized that it is critical for emergency 
managers to be able to geographically target alerts to only those 
phones located in areas affected by an emergency. When the WEA program 
launched in 2012, participating wireless providers were generally 
required to send the alerts to a geographic area no larger than the 
county or counties affected by the emergency situation. As of last 
November, all participating wireless providers are now required to 
transmit alerts to a geographic area that best approximates the area 
affected by the emergency situation, even if it is smaller than a 
county.
    But the Commission did not stop there. Last Tuesday, the Commission 
voted to require participating wireless providers to target alerts to 
the impacted area with an overreach of no more than one-tenth of a mile 
by November 30, 2019. The Commission's recent action also requires that 
alert messages remain available in a consumer-accessible format on 
wireless devices for 24 hours after receipt, or until the consumer 
chooses to delete the message, which will enable the public to better 
review emergency information. The Commission also adopted enhanced 
consumer notification requirements at point-of-sale, to ensure 
consumers understand the benefits of enhanced geo-targeting and the 
extent to which the wireless provider offers enhanced geo-targeting on 
its network and devices.
    Public safety officials support the Commission's recent action. For 
example, Francisco Sanchez, Deputy Emergency Management Coordinator at 
the Harris County, Texas, Office of Homeland Security & Emergency 
Management stated that the rule changes ``set a much needed course to 
keep the Nation's Wireless Emergency Alerts system a trusted life-
saving tool for the public safety community, and is the single greatest 
improvement in years to the country's alerts and warnings 
infrastructure,'' and that it ``will empower local public safety 
officials with the tools necessary to keep WEA relevant and their 
communities safer.''\1\
---------------------------------------------------------------------------
    \1\ FCC Approves Life-Saving Enhancements to Wireless Emergency 
Alerts, Public Safety Officials Applaud Step Forward, Press Release 
(Jan. 30, 2018), at http://www.readyharris.org/News-Information/Ready-
Harris-News/Post/30743?platform=hootsuite.
---------------------------------------------------------------------------
    By matching alerts to phones actually located within the affected 
area, the Commission's action will assist emergency response efforts 
and instill confidence in the public's reliance on WEA. Because people 
will be receiving alerts that are relevant to them, they will be less 
likely to opt out of the program and more likely to take the alerts 
they receive seriously. We are also currently considering how to 
provide emergency managers with the ability to transmit alerts in 
languages in addition to English and Spanish, alerts that can contain 
pictures, and alerts that could provide the public with the ability to 
reply.
    While WEA is a powerful alert and warning tool, it is also 
important to note that it is only one among several tools available to 
emergency managers to alert and warn their communities.
    For example, the Emergency Alert System, or EAS, is the traditional 
system used to provide alerts and warnings to the public over 
broadcast, cable, and satellite systems, and remains a vital tool for 
emergency managers, State, and local authorities. The Commission has 
been working to modernize the EAS to ensure that it remains a relied 
upon and useful tool. For example, just this past December the 
Commission adopted a new ``blue alert'' code for both EAS and WEA that 
will allow alert originators to provide targeted information to the 
public regarding threats to law enforcement and to help apprehend 
dangerous suspects. In November, the Chairman also circulated an item 
for the Commission's consideration that would modernize and streamline 
the filing process for EAS state plans. In addition, last November the 
FCC authorized the rollout of Next Generation TV, also known as ATSC 
3.0, on a voluntary, market-driven basis. Next Gen TV offers a new and 
improved method to provide consumers with vital information during 
emergencies. For example, it will enable advanced emergency alerting 
that could wake up sleeping devices to warn consumers of imminent 
emergencies. It will also allow for localized, emergency alerts in a 
variety of languages, and enhanced datacasting to serve law enforcement 
and first responders more efficiently.
    Over the past several years, the FCC has also worked closely with 
FEMA to conduct Nation-wide tests of the EAS to assess its reliability 
and effectiveness. The FCC has also successfully deployed the EAS 
Electronic Reporting System, or ETRS, a user-friendly database that 
allows the over 25,000 EAS participants to report test results in close 
to real time. The most recent test was conducted on September 27, 2017, 
and our initial analysis of the ETRS results shows improvements in most 
areas. For example, results indicate more than 95 percent of 
participants received the test alerts, and nearly 92 percent 
successfully retransmitted the alert--both up from the previous year. 
Further, more than twice as many EAS Participants retransmitted the 
Spanish language version of the alert than was the case in 2016. In 
all, we are encouraged by the results and will continue to strive to 
find ways to enhance the EAS as well.
    In closing, we look forward to partnering with emergency management 
professionals from your jurisdictions on the alerting capabilities that 
they need to use EAS and WEA with confidence during crises when every 
second counts.
    Thank you for your consideration, and I look forward to any 
questions you may have.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Donovan. Thank you, Ms. Fowlkes, for your testimony.
    I now recognize myself 5 minutes for questions. They are 
scheduling votes somewhere between 11 o'clock and 11:15, so we 
are going to try to get through everyone's testimony and allow 
all our Members.
    I ask unanimous consent to have Ms. Jackson Lee from Texas 
sit on our panel with us. Seeing no objection, welcome, Ms. 
Jackson Lee.
    I have a question for both of you, and in any order of 
which you would like to speak about it. As I mentioned in my 
opening statement, it is vital that the public have confidence 
in our alert system that they receive from their Government, 
and I fear that the erroneous alert that occurred in Hawaii may 
erode that trust and lead some people from opting out of the 
system.
    So as you continue to review what happened in Hawaii, do 
you have any recommendations now? I know your investigation is 
in its initial stages, but is there any recommendations that 
you could share with us now after what you have already been 
able to review on what we could do to prevent that from 
happening again?
    Ms. Fowlkes. At this point, the bureau and the commission 
have not announced any specific recommendations. As you say, 
our investigation is on-going, and the plan is once we have 
completed that investigation, we may have recommendations to 
share.
    Mr. Johnson. Thank you, Congressman. From the FEMA 
perspective, we are conducting an after-action review of the 
events of January 13. I think there are a number of things that 
we can do to ensure that the eroded public confidence that has 
resulted from this mishap on January 13 is improved over time.
    One of the things that we can do, and that we are doing, is 
within FEMA is taking every step that we can take to ensure 
that this does not happen again.
    Second, I think there is the opportunity for us to work 
with the software tool vendors that provide these applications 
to State and local governments for their use to improve those 
tools.
    In fact, we have met with and talked to the vendor that 
provides that software application to the State of Hawaii, as 
well as 47 other State and local governments. They will be 
rolling out this week improvements to their system, or their 
software, to prevent against these types of errors from 
occurring in the future.
    Second, we are revisiting our training to ensure that our 
training adequately addresses the type of error that took place 
on January 13 so that emergency management officials are 
properly prepared to respond to that type of event, even when 
it is in error.
    Then third, we would suggest that there be a broad public 
information campaign, both on the part of State and local 
government, to inform citizens of what these technologies are 
and what they mean to the public when these messages are 
received.
    But we also think there should be a broader over-arching 
public information campaign, that would include things like 
testing, exercising to make sure that we include the whole of 
community in our exercise programs so that the entire community 
is better prepared to deal with any threat to public safety 
that they may face.
    Mr. Donovan. I understand that you haven't completed your 
investigation. I know some of the recommendations, or the 
things that we have been reading about, would include not 
having one person make the determination that this alert should 
be issued, having the alert be in two different places so even 
if it is one person they would have time they would have to go 
to multiple locations to send the alert.
    Why the same mechanism of issuing the alert wasn't used in 
Hawaii to allow the public to know that it was a test, 
apparently the recalling of the alert wasn't pushed through the 
same system that sent the alert. It used other mechanisms, such 
as social media and whatnot. As my friend Don Payne said, it 
took nearly 40 minutes for that to happen.
    There was something I read where people were saying maybe 
the Federal Government is the only ones that should be allowed 
to issue such an alert. Could you speak on any of those items 
here before the committee now?
    Mr. Johnson. Thank you, Chairman Donovan. I would be happy 
to speak on those issues. The event of, you know, what took 
place on January 13 at 8:07 in the morning, was certainly a 
tragic event.
    I think what we are seeing now, as you mentioned the two-
factor validation of a message, we have seen that take place in 
some of the more major cities. In fact, I think the next panel 
will speak to some of those best practices that are emerging 
throughout the community.
    Those type things, where you have two-factor or two-person 
validation of a message before it is sent, works in our major 
cities where their emergency operation centers are well-
staffed, and they have the personnel to perform that function.
    It doesn't work as well in rural areas where the chief of 
police in a single office may be the person who is responsible 
for sending that message to the public and responds to any 
threat to public safety.
    But I do think that where appropriate we will see those 
type best practices emerge within the community, two-factor 
authentication, additional software checks or validation checks 
in the software that is being used by our State and local 
partners.
    I think what we will see in addition to that is better 
training, a very thorough review of the policies and procedures 
that are employed to send these messages. FEMA will be prepared 
to work with our State and local partners in every aspect of 
that.
    In fact, I see that there is a natural progression from the 
guidance that we issued in 2015 to software vendors, wherein 
the initial offerings of those tools that we made available to 
State and local government, for example, did not include a 
cancel function, although the tool would allow them to 
originate a message, there was no ability to cancel the 
message.
    So in 2015 we worked with the vendor community and issued 
recommendations to them on things that they could do to improve 
their software applications.
    We are likewise doing the same thing with the vendor 
community and looking at other opportunities that they may have 
to improve their tools to ensure that those type of errors that 
occurred on January 13 do not occur again.
    Mr. Donovan. Thank you very much, Mr. Johnson. My time has 
run out.
    Ms. Fowlkes, can you tell me in 15 seconds, you were 
talking about how we are going to expand the ability and we are 
going to have multi-lingual alerts. We are going to be able to 
push out photographs. We have expanded the amount of characters 
that can be on an alert.
    Do we a time frame for those things? Are some of those 
things in place now, and in the future how long would you see 
that coming to fruition for us?
    Ms. Fowlkes. The rules that the commission adopted 
regarding the extension of the character limit from 90 to 360, 
as well as the requirement that participating wireless carriers 
support Spanish language alerts, would go into effect in May 
2019.
    The geo-targeting rule that was adopted just last week 
would go into effect in November 2019. The reason for this is 
to allow time for the industry to do standards development 
testing and then whatever upgrades they need to their networks 
and devices.
    Mr. Donovan. Thank you very much.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Johnson, you know, in light of the incident in Hawaii, 
is FEMA considering implementing any additional requirements 
such as on-going training, multi-person alert verifications or 
false alert plans? Are the State and local governments seeking 
to become alert originators as well?
    Mr. Johnson. Thank you, Ranking Member Payne. With regards 
to the requirements for a State or local, territorial, or 
Tribal government to gain access to IPAWS, there are basically 
four steps that any alerting authority would go through in 
order to become an alerting authority.
    First, they must have a valid software that interfaces with 
IPAWS, and that software has to meet certain development 
requirements that we have established with the software tool 
providers. It has to go through testing and should have 
demonstrated that it is capable of processing a common alert 
protocol.
    The second requirement that we have for State and local 
officials is that they enter into a memorandum of agreement 
with FEMA to establish what is called a common operating group, 
or a COG. That group is similar to a distribution list that 
allows the State or local government to share information 
inside of the system.
    The third step that if they wish to become a public 
alerting authority is that they have to enter into a memorandum 
of agreement that defines the geographic area that they are 
requesting this public alerting authority for, as well as the 
types of messages that they intend to send through the system 
and the dissemination channels over which that information 
would go.
    The last step that is required of the State and local 
governments is that they take our IS-247.A course. That is the 
IPAWS training that is administered by the Emergency Management 
Institute. Since 2013, we know that there have been well over 
20,000 people have taken that training.
    In addition to that memorandum of the requirements of the 
MOA, we also require that every person that interfaces with 
that software, that touches IPAWS, also take that IPAWS IS-
247.A training. We make additional resources available to 
State, local, Tribal, and territorial governments through our 
lab that is located in Indian Head, Maryland so that they can 
maintain proficiency in the use of the software.
    That affords them the opportunity to create test messages 
in a safe environment and return the results to them so that 
they have a clear understanding of how that message will appear 
over radio, television, as well as wireless emergency alerts on 
mobile devices.
    Mr. Payne. Are you planning additional requirements with 
respect to, you know, on-going training and that type of thing, 
you know, with this, you know, the human error that was cause 
for a false alarm in Hawaii? What is the redundancy that we can 
look for so we take that out of the equation as much as 
possible?
    Mr. Johnson. Thank you, Congressman. One of the things that 
I will share is we were already undergoing a complete review of 
our training courses that are hosted by the Emergency 
Management Institute.
    We will, likewise, double back and conduct additional 
reviews of that training to ensure that these type of scenarios 
or similar type of events that occurred in Hawaii on January 
13, as well as others that we have observed across the country, 
are properly factored into our training offerings.
    We will look into making additional training beyond our IS-
251 course, which is a more advanced training that we encourage 
alerting authorities to take. We are looking at revamping that 
and considering refresher training on an annual basis as well.
    Mr. Payne. OK.
    Well, Mr. Chairman, my time is just about up, so I will 
yield so Ms. Jackson Lee can----
    Mr. Donovan. The gentleman yields.
    The Chair recognizes Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. Let me thank the Chairman and the Ranking 
Member for their extended courtesies and thank the witnesses 
for their presence here today. Although we are asking questions 
in a very calm manner, this had to be a hair-raising, on-fire 
incident.
    In fact, it could have generated enormous loss of life by 
people's own panic. I guess if it had continued long, most of 
us--I remember visibly seeing a panicked parent putting his 
child in a manhole. That will be a constant memory.
    Certainly if it was a real incident, we know that people 
would be seeking any way to save their lives. One of the things 
that I wanted to take note of is if you all can comment, though 
you are here on the communications aspect, working with State 
emergency centers on how people do evacuate.
    I did not get a sense from the video that people were even 
evacuating in any sort of orderly manner or even knew what to 
do, but I will--I will put that on the table as a concern.
    But let me indicate that the individual employee has broken 
his silence and said that he didn't--it was real. He didn't 
hear any words `exercise, exercise.' It was real, and he 
maintains that.
    I would like you to respond to that, but I also want you to 
respond to these questions that, as I understand the facts, 
that once the mistake was realized, the employee who initiated 
the real-world alert was prompted to send out the cancel 
message on something called AlertSense, but at no point did the 
employee assist in the process. Has any of your agencies looked 
extensively as to why that did not happen?
    Then, secondarily, since this is such a massive notice, and 
Hawaii is so positioned in the Pacific, and I understand there 
was a call to the Pacific Command, or that it is well-connected 
because he indicated that there was a missile alert, that there 
was no safeguard measures to withdraw the alert.
    So if you would answer the questions about the employee's, 
or not respond to employee's, but that there was his 
representation that it was an incident without the ``exercise, 
exercise'', how that could be possible?
    No. 2, how it could be possible, if you're prompted, was 
that discovered that you were prompted to send out a cancel 
message on AlertSense and that was not done? Or is that 
automatic so that the employee, or the person who was obviously 
in shock or whatever their condition was, that the alert goes 
out automatically? That it should be canceled?
    Then, were there no safeguards, measures to withdraw the 
alert? If you could answer those, I would appreciate it.
    Ms. Fowlkes. With respect to the employee's statement that 
there was no ``exercise, exercise, exercise'' at the front and 
end, we actually sent agents to Hawaii to speak to personnel 
and the Hawaii Emergency Management Agency.
    From the information that they have given us, and as well 
as other discussions that we have had including other people 
that were in the room, there was at the beginning and at the 
end, ``exercise, exercise, exercise.''
    Now, the warning officer who transmitted the alert has 
refused to talk to the FCC, but in discussions with Hawaii 
Emergency Management, he submitted a written statement in which 
he claims he didn't hear the ``exercise, exercise, exercise'' 
at the beginning or the end.
    Now, the problem with the alert wasn't the ``exercise, 
exercise, exercise.'' The problem was with their respect to 
their script. It said, ``This is not a drill'', which wasn't 
consistent with Hawaii's Emergency Management Agency.
    He claims, at least according to that statement, that that 
is all he heard, and so he thought it was a live event and, 
ergo, initiated a live alert.
    With respect to cancellation and correction, just to 
explain, the cancellation piece only stops the alert from 
retransmitting. So for example on WEA, if you have your cell 
phone off, and they issue a cancellation, then your phone won't 
get it. So the cancellation, in and of itself, which they were 
able to do, didn't solve all of the problem.
    The bigger problem was that from the preliminary findings 
that we have made is that Hawaii Emergency Management Agency 
never contemplated the possibility that they would ever issue a 
false alert and so they did not have protocols in place, 
standard operating procedures, to address that.
    With respect to the WEA and EAS, they had to figure out 
what code to issue. They talked to FEMA personnel on what was 
about a 45-second phone call. Then somebody had to go log in 
and actually write the correction message because they did not 
have a template for that.
    So that was really the problem with the delay in issuing 
the correction. They never contemplated that they would ever 
have a false alert. Do in this instance when it happened, they 
weren't prepared for it.
    Ms. Jackson Lee. You wish to comment?
    Mr. Johnson. Thank you. Your question about an automatic 
withdrawal of the information from or the message from the 
system----
    Ms. Jackson Lee. Right, because they had to write, as she 
said, they were sending out emails and posting it on their 
personal Facebooks is one of the ways they were responding.
    Mr. Johnson. Yes, so as Ms. Fowlkes described, with the 
cancellation of the message, which we know took place within 
minutes, as she described, that automatically takes the message 
out of the network so that it is not rebroadcast. That is a 
deliberate action that the employee had to take to cancel that 
message within the network.
    The follow-up message to send out a corrective, kind-of a 
corrective action-type message, was also a deliberate action 
that the Hawaii Emergency Management, the agency, was not 
prepared for.
    Typically, we exercise for success when it comes to the 
types of messages that we send and the deliberate actions that 
we would wish the public to take.
    In this case, I would say that if there was any confusion 
on the part of Hawaii Emergency Management as to their 
authority to send that message, or if there was any question as 
to the type of message that should be sent, and in this case, 
it was a civil emergency message that was issued to correct the 
error that had occurred at 8:07.
    When there is that type of uncertainty in the community, 
that points back, in my opinion, to some of our training 
offerings. That is where we are going to address this is 
through training and increased awareness and working with our 
Federal, State, and local partners.
    But those are all deliberate actions on their part that 
they must take and be prepared for in terms of addressing any 
type of error that occurs with some errant message that is put 
out in the system.
    Ms. Jackson Lee. I am going to yield back.
    I want to thank the Ranking Member--well, let me thank the 
witnesses, and let me thank the Ranking Member and the Chairman 
for their courtesies.
    I just want to pose this question on the record, not for an 
answer. I am maybe getting pieces of this, but to me it appears 
that this should be raised to a Federal level, establishing 
protocols.
    This was, I think, was one of the more frightening 
incidences that happens in a State, and the State is left to 
their own devices and protocols which they did not have. This 
could have been catastrophic.
    So I yield back with that question posed. Thank you so very 
much.
    Mr. Donovan. I want to thank the witnesses for your 
valuable testimony. Members of our subcommittee may have 
additional questions for the witnesses, and I would ask that 
you would respond to those in writing.
    This panel is now dismissed. I ask the clerk to prepare the 
witness table for the second panel. Thank you both very much 
for sharing your expertise with us.
    Mr. Johnson. Thank you.
    [Recess.]
    Mr. Donovan. I would like to welcome our second panel to 
today's hearing, and thank all of you for your participation.
    Mr. Benjamin Krakauer serves as the assistant commissioner 
for Strategy and Program Development at the New York City 
Emergency Management Department. He currently serves on FEMA's 
National Advisory Council Integrated Public Alert and Warning 
Committees.
    I would now like to yield to the gentleman from New Jersey, 
Mr. Payne, to introduce our next witness.
    Mr. Payne. Thank you, Mr. Chairman.
    I have the distinct pleasure of introducing Director Peter 
T. Gaynor, is the director of Rhode Island Emergency Management 
Agency and was appointed by Governor Gina Raimondo in January 
2015.
    As the director, he serves as the policy advisor to the 
Governor on emergency management matters and serves as the 
liaison between the Federal Emergency Management Agency and all 
local emergency management offices throughout the State. 
Welcome, sir.
    Mr. Donovan. Mr. Scott Bergmann serves as senior vice 
president of Regulatory Affairs at Cellular Communications 
Industry Association and is responsible for coordinating 
Federal regulatory issues for the association affecting the 
wireless industry, including spectrum, broadband, and public 
safety policy making.
    Mr. Sam Matheny----
    Mr. Matheny. Matheny----
    Mr. Donovan. Matheny. I had it, Sam--is the chief technical 
officer at the National Association of Broadcasters. He is also 
a member of the FCC Communication's Security Reliability and 
Interoperable Council and a member of the Academy of Digital 
Television Pioneers.
    The witnesses' full written statements will appear on the 
record. I thank you all for appearing today and sharing your 
expertise with us.
    The Chair now recognizes Mr. Krakauer for 5 minutes.

  STATEMENT OF BENJAMIN J. KRAKAUER, ASSISTANT COMMISSIONER, 
   STRATEGY AND PROGRAM DEVELOPMENT, NEW YORK CITY EMERGENCY 
             MANAGEMENT, CITY OF NEW YORK, NEW YORK

    Mr. Krakauer. Thank you, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee for the opportunity to 
speak with you today about emergency alerts and warning.
    We take this issue very seriously in New York City and have 
invested considerable resources in it over the past decade, 
thanks in part to funding from the Urban Area Security 
Initiative.
    New York City's opt-in emergency public information system, 
Notify NYC, began in 2007 and to date has sent out more than 
10,000 messages. New York City Emergency Management maintains a 
cadre of public warning specialists who work in our 24/7 
emergency operations center around the clock.
    The majority of our messages are translated into the top 13 
languages spoken in the city, including American sign language. 
Nearly 675,000 people have enrolled in Notify NYC, and we have 
begun to see large increases through our recently-released 
mobile application which allows users to get messages based on 
their present location, has a mapping interface so users can 
view their location relative to the location of an emergency, 
and streamlines the enrollment process to promote user 
adoption.
    While we are very proud of Notify NYC and continue to 
market and promote it across New York City's 675,000 
subscribers, in a city of 8.5 million residents it is not 
enough.
    To expand our reach during the most critical emergencies, 
New York City relies on the Federal Wireless Emergency Alert 
System. New York City helped test the system with FEMA, the 
FCC, and the wireless industry in 2011 and has activated the 
system 8 times since 2012: Three times during Hurricane Sandy, 
2 announcing travel bans in response to severe winter weather, 
and 3 related to the terrorist bombing in Chelsea.
    Our experience with WEA during emergencies shows us the 
power of the system, but it also highlights its shortcomings. 
We appreciate the attention that the FCC has paid to our 
concerns adopting rules that permit the inclusion of links and 
telephone numbers, improved geo-targeting requirements, and 
will soon allow longer messages and messaging in Spanish.
    However, the new rules are not as comprehensive as we would 
hope and therefore we feel that the effectiveness of the system 
is still limited.
    For example, missing from the FCC's latest order is multi-
media alerting, many-to-one communication, and multi-lingual 
learning beyond Spanish. Further, the law still permits 
consumers to opt out of receiving WEA messages from localities, 
which we strongly oppose.
    We must have the ability to embed multimedia in WEA 
messages. This major gap was demonstrated when the NYPD needed 
the public's assistance in locating the suspected Chelsea 
bomber before he detonated another device.
    New York City issued a city-wide WEA that included the 
suspect's name, age, instructions to call 9-1-1 if seen, and a 
statement, ``See media for pic.'' Since there is no capability 
to include images in WEAs, unlike the tens of millions of 
picture and video messages that are sent between consumers on a 
daily basis, recipients of the message needed to find a 
different source to see the suspects photo.
    To quote a recent letter sent to Chairman Pai from New York 
City Police Commissioner James O'Neill, ``We cannot continue to 
rely on the public taking this extra step. The law enforcement 
community can no longer afford to depend on a wireless 
emergency response system that is lagging far behind what 
technology can offer.''
    ``The Chelsea bombings highlighted this major weakness in 
the wireless emergency alert system. Millions of New Yorkers 
who wanted to help us find the suspect were given no other 
option but to take the additional time to search for his photo. 
That time is often a commodity we can't afford to waste.''
    In surveying New Yorkers after the fact, we found that only 
45 percent of message recipients took that extra step to look 
for the photograph.
    Today's WEA system is one-directional and does not permit 
users like New York City to determine how many devices received 
a message, nor does it offer the public the ability to respond 
to a WEA to provide information back to us.
    The ability to rapidly collect and aggregate de-identified 
but location-specific information would allow for the more 
efficient deployment of scarce resources following an 
emergency.
    When the WEA system was first created by Congress, it 
required that the public have the right to opt-out of receiving 
messages from all originators except for the President.
    A common tenet among emergency managers is that all 
emergencies begin and end locally. Local alert originators need 
the unfettered ability to reach messages during an emergency.
    False alerts and poorly-targeted messages lead to consumer 
opt-outs and prevent people from receiving future messages that 
may save their life. We encourage Congress to change the law to 
eliminate the opt-out provision.
    In closing, the Wireless Emergency Alert System is one of 
the greatest advances in public alerting warning in our 
country's history and has been used thousands of times across 
the country to protect lives and property.
    It is a cornerstone element of our public alert and warning 
strategy in New York City, however, the capability offered by 
WEA has not kept up with the advances in technology and with 
how people use their mobile phones.
    WEA needs further enhancement to support today's threats 
and hazards. New York City looks forward to working with 
Congress, our Federal partners, and the wireless industry to 
improve this important tool. Thank you.
    [The prepared statement of Mr. Krakauer follows:]
               Prepared Statement of Benjamin J. Krakauer
                            February 6, 2018
      introduction and history of public alerting in new york city
    Thank you, Chairman Donovan, Ranking Member Payne, and Members of 
the subcommittee for the opportunity to speak with you today about the 
very important topic of emergency alerts and warnings. This is a topic 
that we take very seriously in New York City and have invested 
considerable resources in over the past decade, thanks, in part, to 
funding from the Urban Area Security Initiative. New York City's 
emergency public information system, called Notify NYC, began as a 
pilot program in 2007 following the tragic Deutsche Bank fire on 
Liberty Street in Manhattan. This fire blanketed Lower Manhattan with 
smoke and ash but the city did not have the ability to proactively 
issue a warning. In 2009, Notify NYC began offering services city-wide 
as an opt-in service. Since the inception of the program, New York City 
Emergency Management has considered public alert and warning to be a 
full-time job and our agency maintains a cadre of Public Warning 
Specialists who work in Watch Command, a 247 operations center 
responsible for coordinating emergency activity in New York City on a 
daily basis. There is always a Public Warning Specialist on-duty and 
his or her primary function is to issue public alerts and warnings as 
quickly and accurately as possible.
    Since the program's inception, we have issued more than 10,000 
messages. With more than 200 languages spoken in New York City, most of 
our messages are translated into the top 13 languages, including 
American Sign Language through a linked website. By mid-2019, we'll 
offer multilingual messaging to our subscribers directly through e-
mail, text message, and telephone call. Enrollment in the program 
increases every year and today, almost 675,000 people have enrolled to 
receive Notify NYC messages via e-mail, telephone call, text message, 
and through social media. Most recently--during National Preparedness 
Month in September 2017--we released a mobile application dedicated to 
public alert and warning in New York City. This state-of-the-art 
application is location-aware, allowing users to get messages based on 
their present location and not just pre-registered locations, has a 
mapping interface so users are able to view their location relative to 
the location of an emergency, and streamlines the enrollment process to 
promote user adoption.
               wireless emergency alerts in new york city
    While we are very proud of the emergency public information system 
that we've built and work tirelessly on marketing and improving the 
program, we recognize that 675,000 subscribers in a city of 8.5 million 
residents is not enough. Additionally, we know that there are large 
populations that we need to reach during emergencies that are unlikely 
to enroll in the city's notification system, including more than 60 
million annual tourists and business travelers who are only in the city 
for a short period of time. To reach these individuals New York City 
relies on the Federal Wireless Emergency Alert--better known as WEA--
system to deliver high-priority, time-sensitive messages to mobile 
phones. The beauty of WEA is that it is an opt-out system, and the 
messages that consumers receive are based on their present location, 
not their home or billing address.
    New York City has a strong history with WEA. The program was 
originally announced at the site of the World Trade Center and New York 
City Emergency Management worked with the Federal Emergency Management 
Agency, the Federal Communications Commission, and the wireless 
industry on testing the WEA system in 2011. In 2012, New York City 
became the first State or local government in the country to issue a 
WEA message announcing the evacuation order ahead of Hurricane Sandy. 
Since gaining access to the WEA technology New York City has activated 
the system 8 times: Three messages related to Hurricane Sandy, 2 
messages announcing travel bans related to severe winter weather, and 3 
messages in response to the terrorist bombing in Chelsea.
                     the need for wea enhancements
    Our experience with WEA messages during actual emergencies 
underscores the power of the system but also highlights many of its 
shortcomings that we feel need to be addressed in the near term. Before 
I discuss our top issues, let me say that New York City appreciates the 
attention that the FCC has paid to this important issue. Since the FCC 
released its first Notice of Proposed Rulemaking in 2015, rules have 
been adopted that permit the inclusion of links and telephone numbers 
in WEA messages, require geotargeting below the county level, and--as 
of May 2019--will allow for messaging in Spanish and expand the number 
of available characters from 90 to 360 which will make it easier for 
emergency managers to provide detailed, actionable information. On 
January 30 of this year, the FCC also adopted a number of rules that 
have had broad support by emergency management and public safety 
agencies across the country including requiring WEA messages to be 
preserved on the device for 24 hours and, most importantly, improved 
message geo-targeting.
    While these are enhancements are long overdue and welcomed, the new 
rules do not go far enough and continue to limit the effectiveness of 
the WEA system. Missing from the FCC's latest order is multimedia 
alerting, ``many-to-one'' communication, and multilingual alerting 
beyond Spanish; Further, the law still permits consumers to opt out of 
receiving WEA messages, except those issued by the President of the 
United States.
                          multimedia alerting
    There is currently no ability to embed multimedia--like images, 
maps, infographics--in WEA messages. This major capability gap was 
exemplified on Monday, September 19, 2016 when NYPD needed the public's 
assistance in locating the suspected bomber before he placed or 
detonated another device. Within minutes of receiving the request our 
office issued a city-wide WE! that included the suspect's name, age, 
instructions to call 9-1-1 if seen, and a statement ``see media for 
pic;'' Instead of being able to include an image in the message--like 
the tens of millions of picture and video messages that are sent 
between consumers on a daily basis--recipients of the WEA message 
needed to take an extra step and go to a different source in order to 
see an image of the suspect. To quote a recent letter sent to Chairman 
Pai from New York City Police Commissioner James O'Neil:

``We cannot continue to rely on the public taking this extra step, and 
when it comes to our city's most critical cases, the law enforcement 
community can no longer afford to depend on an emergency wireless 
response system that is lagging far behind what technology can offer . 
. . Pictures provide instant recognition and speak a universal language 
. . . the Chelsea bombings highlighted this major weakness in the 
Wireless Emergency Alert system: millions of New Yorkers who wanted to 
help us find the suspect were given no other option but to take the 
additional time to search for his photo. In any case like this, that 
time is often a commodity we can't afford to waste.''

    Following this instance, New York City commissioned a survey of New 
Yorkers who received the WEA to determine what action, if any, they 
took upon receiving the WEA message. While 89 percent of New Yorkers 
felt that our use of WEA in this case was appropriate, only 45 percent 
of message recipients took the extra step to look for the photo.
                              many-to-one
    Today's WEA system is one-directional and does not offer emergency 
management and public safety the ability to determine how many devices 
received a message nor does it offer the public the ability to respond 
to the WEA message to provide information back to Government. In 2010, 
a severe thunderstorm with embedded tornadoes caused damage to 
buildings, vehicles, infrastructure, and more than 7,000 trees in New 
York City. In order to identify the hardest-hit areas, city residents 
were asked to report damage by calling 3-1-1. The information provided 
was then sorted, mapped, and analyzed in order to determine the 
hardest-hit areas, a process that took hours but could take minutes by 
leveraging the broad reach of WEA messages and adding the ability for 
the public to reply to messages. Simply put, the ability to rapidly 
collect and aggregate de-identified but location-specific information 
would allow for the more efficient deployment of scarce resources 
following an emergency.
                     opting out & national threats
    When the Wireless Emergency Alert system was first created by 
Congress, it required that the public have the right to opt out of 
receiving messages, except those issued by the President of the United 
States; While New York City respects consumer choice and supports the 
President's need to alert the country during National emergencies, it 
is important to note that all emergencies begin and end locally and 
local governments need the same unimpeded ability to reach their 
populations. False alerts, like the unfortunate situation in Hawaii, 
and poorly-targeted messages likely lead to consumer opt-outs and will 
prevent those from receiving future messages that may save their life. 
As such, we encourage Congress to change the law to eliminate the opt-
out provision. Such a change, combined with other WEA improvements, 
will help to ensure that critical warnings reach their intended 
audience. With respect to National threats, like an in-bound missile, 
New York City feels that the Federal Government, as part of its 
National defense responsibility, is in the best position to issue 
timely warnings. We encourage Congress to work with the Departments of 
Defense and Homeland Security on operationalizing the ability for 
issuance of public alerts when an in-bound missile--or similar--threat 
is detected.
                               conclusion
    In closing, the Wireless Emergency Alert system is one of the 
greatest advances in public alert and warning in our country's history 
and has been used thousands of times across the country to protect 
lives and property and is a cornerstone element of our public alert and 
warning strategy in New York City. However, the capability offered by 
WEA has not kept up with the times and needs further enhancement in 
order to support the response to today's threats and hazards; New York 
City looks forward to working with Congress and our Federal partners on 
continuing to improve this important tool. Thank you.

    Mr. Donovan. Thank you, Mr. Krakauer.
    The Chair now recognizes Mr. Gaynor for 5 minutes.

STATEMENT OF PETER T. GAYNOR, DIRECTOR, RHODE ISLAND EMERGENCY 
            MANAGEMENT AGENCY, STATE OF RHODE ISLAND

    Mr. Gaynor. Good morning, Chairman Donovan, Ranking Member 
Payne, distinguished Members of the subcommittee. It is a 
pleasure to appear before you today to discuss the critical 
importance of reliable alert notification communication systems 
at the State, local, and Federal levels that we depend on 
within the State of Rhode Island to successfully achieve our 
mission.
    These systems, plans, policies shape that shape their use 
and the personnel that train, maintain, and operate them are a 
core function of preparedness and response across the country.
    My name is Pete Gaynor, and I am the director for Emergency 
Management for the State of Rhode Island. I am also the chair 
for the State's Interoperable Communications Committee 
responsible for ensuring alert notification and communications 
systems are properly governed, aligned, and integrated. I have 
submitted my full statement to the committee, which I ask be 
made part of this hearing today.
    Today I want to briefly describe to the subcommittee first 
a snapshot of those alert and warning communications systems 
and their use within the State of Rhode Island; second, what we 
have done since the Hawaii false alert; and finally, some 
insights and recommendation for a stronger, more resilient 
alert and warning communications system Nation-wide.
    First, let me describe our system from the local level up. 
In 2015, the State of Rhode Island invested in a commercial 
mass notification system called Code Red.
    Using the Emergency Management Performance Grant, we 
purchased on behalf of all the communities, 39 communities and 
selected State agencies, a singular common system in order to 
remove duplication of effort, improve operational efficiencies 
and save precious local, State, and Federal funding resources.
    Authorized and trained agents at the local level can launch 
any public safety-related alert within their jurisdiction. The 
State has the capability to launch on the behalf of any single 
municipality, multiple municipalities or the entire State, 
depending on the threat or hazard.
    In 2017, August 2017, we completed a long overdue update of 
the State's emergency alert system plan and system. We have 
spent significant energy to ensure plans, procedures, 
equipment, training, safeguards, and testing are up-to-date and 
fully operational. This remains an on-going priority for the 
State.
    We continue to rely on other core Federal systems, such as 
FEMA's National warning system and National radio system to 
ensure we have multiple communication paths.
    Since the January 2018 Hawaiian false ballistic missile 
alert was issued, we have redoubled our efforts through new 
plans, procedures, policies, redundancies, training, authorized 
users, the functionality of equipment, interoperability, and 
the safety measures to ensure we fully understand the 
strengths, the weaknesses, and the potential gaps of all our 
alert warning and communication systems.
    We have revalidated our internal launch and approval 
process to ensure prescriptive messaging is common across all 
our platforms to include recall messaging should an erroneous 
alert be triggered. This process continues today.
    In New England, at both the State and Federal level, we are 
in the process of reviewing past practice for alert and warning 
procedures such as those outlined in FEMA's National Warning 
System operations manual, to make sure that the published 
guidelines and instructions are logical, executable, and 
reasonable after what happened in Hawaii.
    As outlined in the manual, threats posed by National and 
man-made disasters or enemy attack make it imperative for 
State, local, territorial, and Tribal governments to have 
access to an effective and reliable means of communication with 
which to warn the public of impending emergencies so they make 
take preventative actions.
    My fellow New England directors and I completely support 
the premise and are working diligently to ensure we have a 
safe, secure, and reliable alert and warning system.
    In conclusion, in addition to reviewing and validating our 
systems, I believe we have created what I call a technology 
trap. I believe this problem is similar to the military with 
their GPS and digital mapping.
    Will our soldiers be able to navigate with a pencil and a 
paper map and a compass should the GPS constellation be 
disrupted? Can we as emergency managers communicate in a world 
where any combination of a cyber attack, power disruption, or 
natural hazard takes out our digital alert and warning 
communication networks?
    Are we ready to communicate in and warn in an analog world? 
Can we communicate to our citizens without cellphones and the 
internet communicating in a degraded environment?
    Finally, review the DHS security clearance program to 
ensure the right decision makers to route every level of the 
emergency management system have the correct clearance level so 
matters like threat briefs and critical time secure 
communications can seamlessly, rapidly, and securely occur.
    Thank you, Chairman Donovan and subcommittee Members for 
the opportunity to appear in front of you today.
    [The prepared statement of Mr. Gaynor follows:]
                 Prepared Statement of Peter T. Gaynor
                            February 6, 2018
    Good morning Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the subcommittee. It is a pleasure to appear 
before you today to discuss the critical importance of reliable alert, 
notification, and communication systems at the local, State, and 
Federal levels that we depend on within the State of Rhode Island to 
successfully achieve our mission. These systems, the plans and policies 
that shape their use, and the personnel that train, maintain, and 
operate them, are a core function of preparedness and response across 
the country.
    My name is Pete Gaynor and I am the director of Emergency 
Management in the State of Rhode Island. I am also chair of the State's 
Interoperable Communication Committee (ICC) responsible for ensuring 
alert, notification, and communication systems are properly governed, 
aligned, and integrated. As the director and a professional emergency 
manager, I am responsible for preparing for emergencies, coordinating 
the activation and use of resources, ensuring an integrated and unified 
response, and managing the recovery effort in support of our local and 
State governments, citizens, and businesses.
    I am pleased to be testifying before the subcommittee today. I have 
submitted my full statement to the committee, which I ask to be made 
part of the hearing record.
    Today, I want to briefly provide the subcommittee with, first a 
snapshot of those alert, warning, and communications systems and their 
use within the State of Rhode Island, second, what we have done since 
the Hawaii false alert; and finally, some insights and recommendations 
for a stronger more resilient alert, warning, and communications system 
Nation-wide.
    Let me describe our system from the local level up. In 2015, the 
State of Rhode Island invested in a commercial mass notification system 
called CodeRED. Using the Emergency Management Performance Grant, we 
purchased on behalf of all 39 municipalities and selected State 
agencies, a singular common system in order to remove duplication of 
effort, improve operational efficiencies and to save precious local, 
State, and Federal funding resources. Authorized and trained agents at 
the local level can launch any public safety-related alert within their 
jurisdiction. The State has the capability to launch on behalf of a 
single municipality, multiple municipalities, or the entire State 
depending on the threat or hazard.
    With the implementation of the Integrated Public Alert and Warning 
Systems--IPAWS, we have been able to seamlessly integrate CodeRED in 
order to complement the Federal Emergency Alert System (EAS) and 
Commercial Mobile Alert System (CMAS).
    In August 2017, we completed a long-overdue update of the State's 
EAS Plan. We have spent significant energy to ensure plans, procedures, 
equipment, training, safeguards, and testing are up-to-date and fully 
operational. This remains an on-going process.
    Since 9/11, Rhode Island has been fortunate to receive Federal 
funding to build and maintain what we believe is a first-class, border-
to-border, interoperable Land Mobile Radio (LMR) system called the 
Rhode Island State-wide Communications Network, or RISCON. RISCON 
allows thousands of our first responders to seamlessly operate in any 
corner of the State, to include cross-border to many of our 
Massachusetts and Connecticut communities.
    To ensure redundancy and interoperability throughout the State, we 
have a VHF system called the Emergency Management State Radio System 
(EMSTARS) which connect all local emergency managers. That system is 
being refreshed this year. We also have the Rhode Island Law 
Enforcement Telecommunication System (RILETS) which is a data system 
mainly dedicated for daily coordination of local and State police 
departments.
    We continue to rely on other core Federal systems such as FEMA's 
National Warning System (NAWAS) and the FEMA National Radio System 
(FNARS) to ensure we have multiple communication paths, such as non-
switched terrestrial voice circuits and High Frequency (HF) radio for 
both voice and data.
    Since the January 13, 2018, Hawaiian false ballistic missile alert 
was issued, we have redoubled our efforts to review plans, procedures, 
policies, redundancies, training, authorized users, functionality of 
equipment, interoperability and safety measures to ensure we fully 
understand the strengths, weaknesses, and potential gaps of all of our 
alert, warning, and communication systems. We have re-validated our 
internal launch and approval process, ensured pre-scripted messaging is 
common across all of our platforms, to include recall messaging should 
an erroneous alert be triggered. This review process continues today.
    In New England, at both the State and Federal level, we are in the 
process of reviewing past practices for alert and notification 
procedures, such as those outlined in the July 2016 FEMA Manual 211-2-
1, NAWAS Operations to make sure published guidelines and instructions 
are logical, executable, and reasonable after what occurred in Hawaii.
    As outlined in the manual, ``threats posed by natural and man-made 
disasters or enemy attack make it imperative for State, local, 
territorial, and Tribal governments to have access to an effective and 
reliable means of communication with which to warn the public of 
impending emergencies so that they may take protective actions.'' My 
fellow New England directors and I completely support this premise and 
are working diligently to ensure we all have a safe, secure, and 
reliable alert and warning system.
    We also rely on a host of social media platforms like Twitter and 
Instagram to share and collect information. We also look forward to the 
deployment and use of FirstNet, however in the light of recent events 
and the growing complexity and interdependency of many of these 
technologies, we must proceed with caution and apply applicable lesson-
learned to avoid past missteps.
    In conclusion, in addition to reviewing and validating our current 
systems, I believe we have created what I call the Technology Trap. I 
believe our problem is similar to the challenge the military has with 
GPS and the digital mapping world--will our soldiers still be able to 
navigate with a pencil, paper map, and magnetic compass should our GPS 
constellation be disrupted? Can we as emergency managers communicate in 
a world where any combination of a cyber attack, power disruption, and/
or natural hazard takes out our digital alert, warning, and 
communications networks? Are we ready to communicate, alert, and warn, 
in an analog world? Can we communicate to our citizens without cell 
phones and the internet? The harsh reality is if you can't communicate, 
you can't govern.
    Some recommendations:
  <bullet> Ensure FEMA alert and warning procedures are aligned to 
        present-day threats and shifts in technology to include clearly 
        defining responsibilities between all levels of government for 
        alerts and warnings.
  <bullet> Develop a National concept of operations on how to better 
        use General Mobile Radio Service (GMRS), Family Radio Service 
        (FRS), Travelers' Information Station (TIS or Highway Advisory 
        Radio), service with a focus on how to network these systems 
        with State and Federal systems in order to enhance our ability 
        to communicate with the public in an austere environment.
  <bullet> Encourage additional training and exercises at every level 
        to ensure leaders and operators are familiar with every detail 
        of every communication, alert and warning systems, procedures, 
        and shortfalls. I would encourage a more robust and regular 
        Nation-wide IPAWS testing program focusing on the fundamentals 
        of communicating in a degraded environment.
  <bullet> Review the DHS Security Clearance program to ensure the 
        right decision makers, throughout every level of the emergency 
        management system have the correct clearance level, so matters 
        like threat briefs and time-critical secure communications can 
        seamlessly, rapidly, and securely occur.
    Thank you, Chairman Donovan and subcommittee Members, for the 
opportunity to appear before you today.
    I stand ready to answer any questions you might have.

    Mr. Donovan. Thank you, Mr. Gaynor.
    The votes are called. We are going to try to get through 
your testimony first then take a short break, and we will come 
back for questions.
    The Chair now recognizes Mr. Bergmann.

STATEMENT OF SCOTT BERGMANN, SENIOR VICE PRESIDENT, REGULATORY 
                         AFFAIRS, CTIA

    Mr. Bergmann. Chairman Donovan, Ranking Member Payne, and 
Members of the committee, thank you for the opportunity to 
testify today about the critical and successful role of 
wireless emergency alerts.
    CTI and the wireless industry commend Congress for passing 
the Warning Act, which established the wireless emergency alert 
or WEA, a partnership between the wireless industry, 
Government, and public safety officials.
    Since its launch 5 years ago, wireless emergency alerts 
have become an essential tool for Americans, hundreds of 
millions of Americans, who rely on their mobile phones every 
day. Today, wireless providers who serve over 99 percent of 
U.S. subscribers participate in WEA voluntarily.
    More than 33,000 wireless emergency alerts have been sent 
helping to locate those in danger and warn of imminent threats 
or disasters. CTI members are deeply committed to ensuring that 
WEA remains a trusted, secure, and effective resource for the 
American public.
    So the recent false alarm in Hawaii underscores the 
importance of our collective efforts to ensure the 
functionality and the integrity of our Nation's emergency alert 
systems.
    With that in mind, my testimony today will address the 
vital role that WEA plays, our on-going efforts to improve its 
capabilities, and the importance of maintaining the system's 
integrity.
    A decade ago, Congress recognized the value of wireless 
emergency alerts to reach Americans wherever they are. Now, as 
more than half of American households are wireless only, WEA 
has become an essential tool for public safety.
    As part of our broader National alerting system, Federal, 
State, and local authorities transmit emergency messages to 
FEMA, FEMA authenticates and formats those messages and sends 
them out to the various different alerting systems.
    Wireless providers deliver authorized WEA messages to a 
particular geographic area as determined by the alert 
authorities. Wireless providers do not control the content of 
messages and do not exercise discretion over whether to send 
them.
    Because local authorities can target specific geographic 
areas, they are extremely effective at reaching those Americans 
directly impacted by an emergency. WEA's unique sound and 
vibration help ensure that everyone can be aware of the alert.
    Wireless emergency alerts have helped to address terrorist 
threats, locate suspects like in the 2013 Boston bombing and 
the 2016 Chelsea bombing, and they have helped to return 
abducted children and they have warned millions of people in 
the path of severe weather events.
    We continue to expand and improve WEA's capabilities. In 
the past year, the FCC adopted rules to expand the content that 
authorities can send, adding additional characters, Spanish 
language, blue alerts and downloadable content through embedded 
links, as well as supporting additional testing by State and 
local authorities.
    The wireless industry has supported these enhancements 
because our Members are committed to the proven life-saving 
success of WEA. Just last week, the FCC adopted an order that 
further improves WEA's geotargeting capability.
    Today, WEA alerts can be targeted down to the cell-sector 
level, a significant improvement over the original county-level 
targeting. The FCC's new approach will take advantage of 
innovative device-based solutions to further target those 
alerts.
    The wireless industry is undertaking significant standards, 
testing, and deployment work to support this capability. The 
FCC's deadlines are aggressive, but the wireless industry will 
work intently to implement them.
    Finally, the false alert in Hawaii underscores that public 
confidence must be our highest priority. Alert originators must 
send warnings appropriately and judicially. FEMA must 
authenticate messages quickly and accurately and providers must 
deliver them to the targeted area.
    We commend this committee and Chairman Pai at the FCC for 
working quickly to identify lessons learned from the false 
alert. We appreciate Commissioner Rosenworcel's call for 
additional best practices.
    While there will be many lessons learned, this event does 
demonstrate that the technical capabilities of WEA function. 
Policy makers and the public should have confidence that in the 
event of a real emergency, wireless emergency alerts can send 
information rapidly and effectively.
    Let me also stress that the wireless industry is keenly 
focused on the security of our networks, including those that 
support WEA. Through a combination of technologies, policies, 
and best practices, we work closely with our Government and 
public safety partners to further our common goal of a trusted 
WEA system.
    CTI is proud of the critical role that we have played in 
our National system, and we are committed to working 
collaboratively to maintain public confidence.
    Thanks for the opportunity to testify, and I look forward 
to your questions.
    [The prepared statement of Mr. Bergmann follows:]
                  Prepared Statement of Scott Bergmann
                            February 6, 2018
    Chairman Donovan, Ranking Member Payne, and Members of the 
committee, on behalf of CTIA and our member companies throughout the 
wireless ecosystem, thank you for the opportunity to appear before you 
today to discuss the critical and successful role of Wireless Emergency 
Alerts within our Nation's emergency alert system.
    CTIA commends the bi-partisan leadership in Congress for its 
passage of the Warning, Alert, and Response Network (WARN) Act, which 
created the Wireless Emergency Alert (WEA) program, a public-private 
partnership between the wireless industry, Government, and alert 
originators. The Wireless Emergency Alert system was launched in 2012 
and is jointly implemented and administered by the Federal 
Communications Commission (FCC) and Federal Emergency Management Agency 
(FEMA). In the 5 years since the launch of the Wireless Emergency Alert 
system, it has become a critical resource for the hundreds of millions 
of Americans who rely on their mobile phones every day.
    CTIA and its member companies are proud of the wireless industry's 
role in the Wireless Emergency Alert system. Today, all four National 
wireless providers and dozens of regional providers, serving more than 
99 percent of all U.S. subscribers, are voluntarily participating in 
the Wireless Emergency Alert system; transmitting thousands of alerts 
each year and helping our public safety professionals save lives.\1\ 
Ensuring that Wireless Emergency Alerts remain a trusted source of 
emergency information for the American public is one of our highest 
priorities.
---------------------------------------------------------------------------
    \1\ Wireless Emergency Alerts, Order on Reconsideration, 32 FCC Rcd 
9621, 9625 n.28 (2017); see also, CTIA, How Wireless Emergency Alerts 
Help Save Lives, https://www.ctia.org/consumer-tips/how-wireless-
emergency-alerts-help-save-lives (last visited Jan. 23, 2018).
---------------------------------------------------------------------------
    The false alert that was issued in Hawaii on January 13, 2018 is of 
course at top of mind for policy makers, CTIA and its member companies, 
all WEA stakeholders, and the public writ large. The Hawaii incident 
underscores to all of us the importance of the functionality and 
integrity--and credibility--of our Nation's emergency alert systems. 
Any incident that affects the public's confidence in emergency alerts 
risks undermining the effectiveness of all alerting systems, including 
WEA. We lose the effectiveness of emergency alerting if people simply 
ignore or opt-out of receiving these critical messages.
    For this reason, we are deeply committed to doing our part to 
ensure that Wireless Emergency Alerts remain a trusted and effective 
tool for public safety within our Nation's emergency alert system, 
which is managed by FEMA through the Integrated Public Alert and 
Warning System (IPAWS) that also supports the Emergency Alert System 
(EAS), National Weather Service, and other alerting tools. With that in 
mind, I would like to address the WEA program's success, the 
cooperative voluntary framework on which WEA operates, on-going efforts 
to enhance the geographic targeting (geo-targeting) of alert messages, 
and, finally, the importance of maintaining the WEA system's integrity.
                the success of wireless emergency alerts
    The Wireless Emergency Alert system is the newest and most 
effective means the Nation has for warning Americans of imminent 
dangers and other incidents requiring immediate action. A decade ago, 
Congress and this committee wisely recognized the value of wireless in 
reaching nearly every American and set in motion the creation of the 
Wireless Emergency Alert system. Now, as more than half of American 
households have cut the cord and are ``wireless only,''\2\ alerts and 
warnings sent to our mobile devices are the obvious choice for public 
safety officials to make sure we can take action wherever we are, 
whatever we are doing.
---------------------------------------------------------------------------
    \2\ Stephen J. Blumberg & Julian V. Luke, Ctrs. for Disease Control 
& Prevention, Nat'l Ctr. for Health Statistics, Wireless Substitution: 
Early Release of Estimates From the National Health Interview Survey, 
July-December 2016 (May 2017); see also, Alina Sleuth, Nat'l Pub. 
Radio, The Daredevils Without Landlines--And Why Health Experts Are 
Tracking Them (May 4, 2017), https://www.npr.org/sections/
alltechconsidered/2015/12/03/458225197/the-daredevils-without-
landlines-and-why-health-experts-are-tracking-them.
---------------------------------------------------------------------------
    Wireless Emergency Alerts delivered to wireless devices in a 
targeted area--with their unique sounds, high volumes, and forceful 
vibrations--save lives. The WEA system sends out Amber Alerts and 
shelter-in-place directives, warns citizens of fires, floods, and 
tornados, and otherwise keeps the public apprised of real threats. 
Because WEA messages are delivered to consumers with capable mobile 
devices in an area targeted by local authorities, they are an extremely 
effective mechanism for reaching those Americans that are directly 
impacted by an emergency. It is no wonder that some have called 
Wireless Emergency Alerts ``the Government's most potent public 
notification system.''\3\
---------------------------------------------------------------------------
    \3\ Aaron C. Davis & Sandhya Somashekhar, The only California 
county that sent a warning to residents' cellphones has no reported 
fatalities, Wash. Post, Oct. 13 2017, https://www.washingtonpost.com/
investigations/the-only-california-county-that-sent-a-warning-to-
residents-cellphones-has-no-reported-fatalities/2017/10/13/b28b5af4-
b01f-11e7-a908a3470754bbb9- _story.html?utm_term=.cd24bb9ecf9chttps://
www.washingtonpost.com/investigations/the- only-california-county-that-
sent-a-warning-to-residents-cellphones-has-no-reported-fatalities/2017/
10/- 13/b28b5af4-b01f-11e7-a908-a3470754bbb9- 
_story.html?utm_term=.cd24bb9ecf9c.
---------------------------------------------------------------------------
    Since 2012, more than 33,000 Wireless Emergency Alerts have been 
sent to consumers with WEA-capable devices.\4\ These messages have 
warned Americans of imminent threats or disasters and asked the public 
for help in locating someone in danger.
---------------------------------------------------------------------------
    \4\ Mark Lucero, Fed. Emergency Mgmt. Agency, Integrated Public 
Alert & Warning System16 16 (Aug. 8, 2017), https://
view.officeapps.live.com/op/view.aspx?src=https%3A%2F%2F- 
www.napsgfoundation.org%2Fwp-
content%2Fuploads%2F2017%2F08%2FFEMA_IPAWS- 
_Keynote_MarkLucero_20170708.pptxhttps://view.officeapps.live.com/op/
view.aspx?src- =https%3A%2F%2Fwww.napsgfoundation.org%2Fwp-
content%2Fuploads%2F2017%2F08- %2FFEMA_IPAWS_Keynote_Mark-
Lucero_20170708.pptx.
---------------------------------------------------------------------------
    For example, local emergency officials have used Wireless Emergency 
Alerts to inform the public of on-going law enforcement and terrorist 
threats, and to enlist their assistance. In 2013, Massachusetts 
authorities sent a shelter-in-place Wireless Emergency Alert while 
apprehending the suspects in the Boston Marathon Bombing.\5\ And in 
2016, the city of New York sent a description of the suspect in the 
Chelsea Bombing through a Wireless Emergency Alert, leading to the 
suspect's arrest within hours of the alert.\6\
---------------------------------------------------------------------------
    \5\ Rick Wimberly, Powerful Wireless Emergency Alerts Success 
Stories at Congressional Hearing, Emergency Management, Oct. 24, 2013, 
http://www.govtech.com/em/emergency-blogs/alerts/Powerful-Wireless-
Emergency-Alerts-Success-Stories-at-Congressional-Hearing.html.
    \6\ David Goodman & David Gelles, Cellphone Alerts Used in New York 
to Search for Bombing Suspect, N.Y. Times, Sept. 19, 2016, https://
www.nytimes.com/2016/09/20/nyregion/cellphone-alerts-used-in-search-of-
manhattan-bombing-suspect.html.
---------------------------------------------------------------------------
    In 2015, an AMBER Alert for a missing child was sent through the 
WEA system to wireless consumers in Minnesota. A citizen in the area 
received the alert on their smartphone, saw a black Honda Civic that 
matched the description issued in the alert, and called 9-1-1. 
Authorities responded and rescued the child from the abductor. This is 
just one of many such success stories of our National emergency alert 
system, which includes WEA--a total of 910 children have been 
successfully recovered through the AMBER Alert system, as of January 8, 
2018.\7\
---------------------------------------------------------------------------
    \7\ Amber Alerts, Nat'l Ctr. for Missing & Exploited Children, 
http://www.missingkids.com/gethelpnow/amber (last visited Jan. 23, 
2018).
---------------------------------------------------------------------------
    Wireless Emergency Alerts have also been used extensively to warn 
the public of severe weather emergencies. This past fall, more than 300 
Wireless Emergency Alerts warned people around Houston, Texas about 
Hurricane Harvey and its rising floodwaters, more than 200 Wireless 
Emergency Alerts warned Floridians about the strong winds of Hurricane 
Irma, and Wireless Emergency Alerts played a critical role in warning 
many Californians about the devastating wildfires.\8\ In 2013, 29 
children were saved from a tornado ripping through a soccer building in 
Windsor, Connecticut when the camp manager received a Wireless 
Emergency Alert seconds before the tornado touched down.\9\ Even as the 
system was only months old in 2012, public safety officials were using 
Wireless Emergency Alerts to warn the people in the path of Superstorm 
Sandy.\10\
---------------------------------------------------------------------------
    \8\ See generally CTIA, Hurricane Harvey: Resiliency & Relief, 
https://www.ctia.org/hurricane-harvey/ (last visited Jan. 16, 2018); 
Davis & Somashekhar, supra note 3; Richard Perez-Pena, Fire Alert Sent 
to Millions of Cellphones Was California's Largest Warning Yet, N.Y. 
Times, Dec. 7, 2017, https://www.nytimes.com/2017/12/07/us/cellphone-
alerts-california-fires.html.
    \9\ Wimberly, supra note 5; see also, David Owens & Chloe Miller, 
National Weather Service Confirms Two Tornadoes Monday, Hartford 
Courant, July 2, 2013, http://articles.courant.com/2013-07-02/news/hc-
tornado-warning-0702-20130701_1_windsor-locks-dome-national-weather-
service-confirms.
    \10\ Rick Wimberly, CMAS/WEA Used Extensively for Hurricane Sandy, 
Emergency Management, Oct. 31, 2012, http://www.govtech.com/em/
emergency-blogs/alerts/CMASWEA-Used-Extensively for-103112.html (noting 
that ``alerts were issued all along the eastern seaboard in Virginia, 
West Virginia, Maryland, New York, Massachusetts, New Hampshire, and 
Maine'').
---------------------------------------------------------------------------
    For more than a decade, the wireless industry has worked diligently 
to develop and deploy this capability in its networks and devices. 
Through cell broadcast technology unique to the WEA system, mobile 
providers can broadcast Wireless Emergency Alerts from cell-sites in 
areas targeted by local emergency officials to wireless devices in a 
timely manner. Today, there are millions of devices throughout the 
United States that are capable of receiving these critical messages.
    Wireless Emergency Alerts are part of the broader National alerting 
system, known as the Integrated Public Alert and Warning System 
(IPAWS), managed by FEMA. Through IPAWS, authorized Federal, State, and 
local authorities, known as alert originators, transmit emergency 
messages to a FEMA-operated system. FEMA's system authenticates and 
formats the message for distribution across a variety of channels, 
including the WEA system. Of note, the substance and distribution 
channel of an alert is determined by the Federal, State, or local 
government that originates the alert. Wireless providers deliver 
authorized WEA messages to the target area identified by the alert 
originator without input into the content of a message or discretion 
over whether or not to transmit it.
    Reflecting the evolution of our mobile wireless networks and 
devices, the capabilities of the Wireless Emergency Alert system 
continue to advance in a remarkably short time frame. In less than 6 
years since the voluntary Wireless Emergency Alert system was first 
launched, the FCC has adopted various updates and improvements, 
including an order to enhance WEA's geo-targeting capabilities that was 
adopted last week. In 2016, the FCC put rules in place to increase the 
maximum alert length from 90 characters to 360 characters for LTE 
wireless systems and future networks, as well as support additional 
local and State testing capabilities, Blue Alerts, Spanish-language 
alerts, and embedded links and phone numbers. In particular, the FCC 
noted that allowing embedded references to be included in WEA alerts 
``will dramatically improve WEA's effectiveness'' and that commenters 
identified this capability as ``the most critical among all of our 
proposed improvements to WEA.''\11\
---------------------------------------------------------------------------
    \11\ Wireless Emergency Alerts, Report and Order and Further Notice 
of Proposed Rulemaking, 31 FCC Rcd 11112, 11137-38 (2016).
---------------------------------------------------------------------------
    CTIA's member companies are working hard to add these new 
capabilities into the WEA system, and have already answered public 
safety's call to ensure that alerts are capable of including embedded 
links so that consumers will be able to go to a website to see a photo 
of the missing child or a suspected terrorist.
                  enhanced geo-targeting requirements
    Last week, the FCC adopted another order focused on the geo-
targeting capabilities of the WEA system.\12\ The FCC initially 
mandated targeting at the county level, but many participating 
providers began voluntarily supporting geo-targeting of Wireless 
Emergency Alerts well below the county level to enable local officials 
to minimize over-alerting. An appropriately-targeted WEA message can 
mitigate the possibility that an alert will cause distress or panic in 
areas not actually at risk and enhance public confidence in the 
emergency alert system. Today, participating providers deliver Wireless 
Emergency Alerts to a targeted area that best approximates the area 
identified by the alert originators down to the cell-sector level.
---------------------------------------------------------------------------
    \12\ Wireless Emergency Alerts, Second Report and Order and Second 
Order on Reconsideration (rel. Jan. 31, 2018), available at https://
www.fcc.gov/document/fcc-improves-wireless-emergency-alerts-0.
---------------------------------------------------------------------------
    While the ability to geo-target Wireless Emergency Alerts down to 
the cell-sector level will remain a constant feature of the system, we 
share the expressed goal of public safety leaders to harness innovative 
location technologies to further minimize the possibility of over-
alerting. For this reason, CTIA supports the framework for enhancing 
the geo-targeting capabilities of the WEA system that the FCC adopted 
last week. To deliver this new capability, wireless providers will 
shift from a solely network-based approach to target the alert area to 
one that also harnesses location capabilities within mobile devices. 
Once available, this capability will give local alert originators an 
additional tool to minimize the possibility that someone will receive 
an irrelevant Wireless Emergency Alert.
    The FCC's geo-targeting Order proposes an aggressive implementation 
time line that will present a significant challenge for wireless 
providers and device manufacturers. As the Order notes, significant 
standards, deployment, and testing work remains to support this 
enhanced geo-targeting capability throughout the chain of the alert--
from alert originators to FEMA's gateway to wireless networks to mobile 
devices. The wireless industry--including participating providers and 
device manufacturers--will work intently, as it always has, in an 
effort to meet the FCC's aggressive deadline.
    maintaining public confidence and system integrity after hawaii
    The January 13, 2018 incident in Hawaii has underscored for all of 
us--Government and industry alike--that the success of Wireless 
Emergency Alerts relies on the public's trust. Trust in the system 
hinges on execution. Alert originators must send Wireless Emergency 
Alerts appropriately and judiciously; the FEMA authentication and 
verification process must be expeditious and robust; and participating 
wireless providers must deliver WEA messages to the targeted area. Only 
this way will the public know that when a Wireless Emergency Alert is 
sent, the danger is real.
    This committee should be commended for focusing on what errors led 
to the false Hawaii alert and on drawing out lessons learned, 
particularly around the issue of system integrity and security. Going 
forward, we should strive to make sure that another harm does not take 
root--namely, the danger that the next time an alert is issued, that 
some will not take it seriously or refuse to evacuate. For this reason, 
CTIA and the wireless industry commend FCC Chairman Pai for swift 
action to investigate the cause of this incident and appreciate FCC 
Commissioner Jessica Rosenworcel's recent recommendations and 
suggestions for new best practices around the training and use of our 
Nation's emergency alert system.
    Notably, Congress recognized the need to train and equip our alert 
originators to more effectively use our Nation's emergency alert system 
when the IPAWS Modernization Act became law in 2015. And in 2016, the 
FCC encouraged emergency management agencies to engage in proficiency 
training exercises that could help minimize system failures and ensure 
that any failures are corrected during a period when no real emergency 
exists. CTIA strongly supports all of these efforts and encourages FEMA 
and other public-safety authorities to offer training opportunities for 
alert originators that promise to bolster WEA's utility and credibility 
going forward.
    CTIA and our member companies are also keenly focused on the 
security of wireless networks. Wireless providers work in a 
collaborative partnership with network equipment manufacturers, chipset 
and device providers, and the application ecosystem to build robust 
security in and around wireless networks. They use a combination of 
technology, security best practices, innovative tools, and tight 
physical and virtual access controls to manage and protect their 
networks.\13\ In our National emergency alert system, wireless 
providers participating in WEA depend on the integrity of the messages 
received from alert originators and FEMA. To promote our common goal of 
a trusted WEA system, CTIA and the wireless industry engage with the 
FCC, FEMA, and alert originators to share expertise in the 
identification of threats and development of recommendations.\14\
---------------------------------------------------------------------------
    \13\ CTIA, Protecting America's Wireless Networks, Apr. 2017, 
https://www.ctia.org/docs/default-source/default-document-library/
protecting-americas-wireless-networks.pdf.
    \14\ See, e.g., FCC, Communications Security, Reliability, and 
Interoperability Council V, Working Group 2, Emergency Alerting 
Platforms, WEA Security Sub-Working Group, Final Report.
---------------------------------------------------------------------------
    While we expect there are many lessons to be learned from the 
experience in Hawaii, and many will be cautionary, we should also 
acknowledge that wireless networks and devices performed exactly as 
designed and effectively delivered and presented the alert message as 
received from the FEMA gateway. The speed and effectiveness of its 
delivery should give policy makers and the public confidence that in 
the event of a real emergency, the Wireless Emergency Alert system will 
disseminate information rapidly and accurately to Americans--wherever 
they may be.
    CTIA and the wireless industry are proud of the critical role that 
Wireless Emergency Alerts play in our Nation's emergency alert system, 
and are committed to continue working collaboratively with public 
safety professionals at every level of our Government to maintain 
system integrity and public confidence in Wireless Emergency Alerts.
    Thank you for the opportunity to testify today. If CTIA can provide 
any additional information you would find helpful, please let us know.

    Mr. Donovan. Thank you, Mr. Bergmann.
    The Chair now recognizes Mr. Matheny for an opening 
statement.

 STATEMENT OF SAM MATHENY, CHIEF TECHNOLOGY OFFICER, NATIONAL 
                  ASSOCIATION OF BROADCASTERS

    Mr. Matheny. Good morning, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee. My name is Sam Matheny, 
and I am the chief technology officer at the National 
Association of Broadcasters.
    On behalf of the thousands of free local television and 
radio broadcasters in your home towns, thank you for inviting 
me to testify on the emergency alert system, how broadcasters 
fulfill their role as first informers, and how innovation will 
allow broadcasters to do even more to keep viewers and 
listeners safe during emergencies.
    Broadcasters take seriously their role as the most trusted 
source of news and emergency updates, whether it is preparing 
listeners and viewers for the coming storm, directing them to 
needed supplies and shelter during the disaster, or helping 
rebuild in the aftermath.
    Local stations are part of the communities they serve. 
Broadcasting is sometimes the only available communications 
medium in an emergency when wireless networks fail. Morning 
Consult recently found that the American people turn to 
broadcasters in times of emergency by a factor of more than 3 
to 1.
    Broadcasting is unique for the following reasons. First, 
broadcasting covers virtually everyone. Broadcast signals reach 
more of the U.S. population than any other communications 
medium.
    Broadcasting is localized. Local broadcast stations can 
deliver market-specific information, as well as National 
alerts.
    Broadcasting has no bottlenecks. An emergency alert can 
reach millions of people simultaneously without concern over 
network congestion.
    Broadcasting is redundant. There are numerous independently 
operated stations in each market that deliver alerts.
    Broadcasting is resilient. Stations often operate with 
backup equipment, generators, and fuel supplies to stay on the 
air.
    Broadcaster information is actionable. Radio and television 
can provide enough information to enable people to understand 
what is happening and what steps they should take.
    Finally, broadcasters are trusted. They are members of the 
local community and speak not just as an authority, but as a 
neighbor.
    But broadcasters do more than just deliver messages to the 
public. Broadcasters are also the backbone of the emergency 
alert system. Working with the Government since the 1950's, 
broadcasters have operated and evolved a Nation-wide wireless 
network to deliver emergency alerts.
    This daisy chain of broadcast stations ensures that 
emergency alerts can be delivered independent of Internet 
connectivity and even when power outages may disrupt other 
forms of communication.
    In fact, broadcasters serve as primary entry points for 
emergency communications to the public and are thus part of the 
solution from beginning to end.
    Because broadcasting plays such an important role in this 
critical communications infrastructure, it is vital that the 
Government support and foster broadcasting. I would like to 
briefly outline three key areas for your consideration.
    First, broadcasters are in the final and most complicated 
phase of the incentive option, the repack phase. Nearly 1,000 
television stations will be moving to new channel assignments 
and this will also impact over 700 FM radio stations on 
collocated towers.
    Broadcasters need the time and money required to make these 
moves successfully and without impairing the public's ability 
to access emergency alerts. I ask for your support of the 
Viewer Protection Act and the Radio Consumer Protection Act and 
urge their passage as no station should be forced off the air 
due to lack of funds or unreasonable time constraints.
    Second, broadcasters have been working with the wireless 
phone manufacturers and service providers on market-based 
solutions to activate the FM chips that are in smartphones. Our 
market efforts have been successful with one very notable 
exception, Apple.
    We believe Apple should be encouraged to activate the FM 
tuner in future models of their iPhone as it will improve 
people's access to vital information in times of disaster.
    Third, the next generation television standard, ATSC 3.0, 
which was recently approved by the FCC, has many features that 
will improve emergency alerting, including the ability to wake 
up sleeping television sets, more precise geotargeted alerts, 
and sending rich multimedia files such as weather radar images 
evacuation maps and even video files with detailed explanations 
of the emergency and what to do. New regulatory hurdles should 
not be placed in our way as we deploy next-gen TV.
    In conclusion, in emergencies large and small, our Nation 
and your home towns benefit from a strong and vibrant broadcast 
industry. FEMA calls broadcasting a redundant, resilient, and 
necessary alerting pathway. I agree.
    Thank you for having me here today, and I look forward to 
any questions you may have.
    [The prepared statement of Mr. Matheny follows:]
                   Prepared Statement of Sam Matheny
                            February 6, 2018
                              introduction
    Good morning, Chairman Donovan, Ranking Member Payne, and Members 
of the subcommittee. My name is Sam Matheny and I am the chief 
technology officer at the National Association of Broadcasters (NAB). 
On behalf of the thousands of free, local television and radio 
broadcasters in your hometowns, thank you for inviting me to testify on 
the Emergency Alert System (EAS), how broadcasters fulfill their role 
as first informers and how innovation will allow broadcasters to do 
even more to keep viewers and listeners safe during emergencies. In 
addition to my role at NAB, I bring another perspective to these issues 
having spent nearly 20 years with Capitol Broadcasting Company, parent 
to WRAL-TV in Raleigh, North Carolina. There I worked directly with 
State emergency officials to help develop demonstrations of mobile 
alerts and warnings. Additionally, I have experience serving on 
committees that advise the Federal Communications Commission (FCC) and 
Federal Emergency Management Agency (FEMA) on a wide variety of network 
security, reliability, and public safety issues, and specifically on 
how to improve our Nation's Integrated Public Alert and Warning System 
(IPAWS).
     broadcasters' unique role and experience in emergency alerting
    As the most trusted source of news and emergency updates, 
Americans' first choice is to turn to local television and radio 
stations to get the information they need to keep safe during 
emergencies. Local stations are part of the communities they serve, and 
broadcasters do not hesitate to put themselves in harm's way to bring 
critical information to their neighbors. Whether it is preparing 
listeners and viewers for the coming storm, helping them access needed 
supplies and shelter during the disaster or helping towns and cities 
rebuild in the aftermath, local broadcasters take seriously their 
commitment to protect the public.
    Recent fires and mudslides on the West Coast and hurricanes in 
Texas, Florida, and Puerto Rico have once again shined a bright light 
on our Nation's emergency preparedness and response abilities. While 
this is obviously true for first responders and all levels of 
government, it is also true for broadcasters. FCC Chairman Ajit Pai 
reminded us just last month that in times of crisis first responders 
and first informers work hand-in-hand, noting that ``[b]roadcasting and 
public safety have been lifelong companions.'' While this sort of 
cooperation received National attention during the recent hurricanes 
and wildfires, it was just as true 2 years ago when over 60 tornados 
ravaged parts of 11 States across the southeast and just a few months 
later when quick and devastating floods overtook large parts of West 
Virginia and Virginia in what the National Weather Service (NWS) 
referred to as a One-Thousand-Year Event. In each of these cases and in 
countless others, broadcasters were there, serving their listeners, 
viewers, and communities.
    Broadcasters invest heavily to ensure they remain on the air in 
times of disaster. Facilities often have redundant power sources, 
automatic fail-over processes, auxiliary transmission systems, 
generator back-up and substantial fuel reserves. Because of the 
strength of the broadcast infrastructure and the power of the airwaves, 
local radio and TV stations are often the only available communications 
medium during disasters, even when cell phone and wireless networks can 
be unreliable. FEMA officials have noted that in times of emergency 
there is no more reliable source of information than local 
broadcasters. To give just one example, last year after Hurricane Maria 
moved through Puerto Rico and left much of the island without power and 
access to even basic information, not only were local television and 
radio stations continuing to provide life-saving alerts and information 
all throughout the ordeal, but afterward NAB partnered with numerous 
State broadcaster associations, FEMA and local officials in Puerto Rico 
to deliver 10,000 battery-powered radios to island residents who had no 
other lifeline.
    This unique combination of trust and reliability is why, in 
addition to our on-going, comprehensive news coverage of emergencies, 
broadcasters form the backbone of the Emergency Alert System. We have 
all seen or heard the familiar announcement ``The following is a test 
of the Emergency Alert System. This is only a test.'' EAS connects 
over-the-air broadcast radio, television, and cable systems, and is 
used during sudden, unpredictable, or unforeseen events. EAS 
participation is technically voluntary, yet virtually all radio and 
television stations participate, and do so proudly, even purchasing EAS 
equipment at their own expense. Today, the EAS, along with Wireless 
Emergency Alerts (WEAs) and National Oceanic and Atmospheric 
Administration (NOAA) Weather Radio, is part of the IPAWS umbrella, 
enabling State and local emergency managers to integrate with the 
National alert and warning infrastructure.
      lessons learned from nation-wide eas test and recent events
    In September 2017, FEMA, in coordination with the FCC and the NWS, 
conducted a Nation-wide test of the reliability and effectiveness of 
the EAS. Generally, the results of the test were positive, as a 
majority of EAS participants received and retransmitted the message, 
and participation improved compared to a previous test in 2016.
    However, as the residents of and visitors to Hawaii know all too 
well after last month's false alert of a nuclear attack, our Nation's 
public alert and warning system and the emergency managers that 
originate messages are not always perfect. In an instant, one emergency 
manager's mouse click triggered a local and National panic, compounded 
by a lack of information and delay in disseminating correct information 
via official channels. Several items arising out of this unfortunate 
incident are worth discussing.
    First, the most important takeaway is that the EAS system worked; 
radio and television broadcasters were on the case. The mistaken EAS 
alert was immediately relayed by broadcasters, who verified the source 
of the message but must rely on emergency managers for validation of 
the emergency. Broadcasters also stood by to disseminate the All-Clear 
message. Unfortunately, it took emergency managers 38 minutes to issue 
the needed follow-up EAS message. In the mean time, broadcasters used 
other means to confirm and report that it was a false alarm as soon as 
possible. The EAS system is a critical part of the trust that people 
place in broadcasters during an emergency, but human error in the 
issuance of EAS alerts can impair that trust. Going forward, NAB hopes 
to work with all the relevant stakeholders to minimize, if not 
eliminate, any vulnerabilities in the EAS process that may hinder 
broadcasters from carrying out their duty as first informers.
    Second, broadcasters support the continued implementation by FEMA 
of the IPAWS Modernization Act, legislation this committee helped 
author and pass in 2016. This legislation recognized that the continued 
success of EAS will depend on the expertise and ability of local 
authorities to fully and effectively deploy it. Broadcasters applaud 
FEMA's on-going efforts to train State and local authorities on the 
proper use of the system, and support this legislative effort to 
incentivize State and local officials to participate in training. 
Especially after Hawaii, it is more important than ever that local 
emergency managers know exactly how and when to trigger an EAS alert.
    Third, Congress and the FCC should consider whether current WEAs 
provided by the wireless industry are sufficient to adequately alert 
and warn recipients in times of emergency. Twenty years after the pager 
was supplanted by the brick phone, then the flip phone and now the 
smartphone, a WEA delivers text-only emergency information to 
recipients, often with fewer characters than a tweet. Often, these 
alerts simply direct recipients to ``check local media.'' A multi-
stakeholder FCC advisory committee that I served on recommended that 
WEA be improved by increasing the number of characters from 90 to 360 
so the alerts would be more informative and useful. Further, this 
committee also recommended that WEA include embedded links and phone 
numbers so recipients could quickly gain access to additional 
information. These suggested enhancements were opposed by the wireless 
industry before the FCC, but were ultimately authorized in September 
2016 and are awaiting implementation. In contrast, I will detail below 
several ways in which radio and television broadcasters are innovating 
to better inform their communities when it matters most.
      policy choices critical to broadcasters' current and future 
                              capabilities
    It is important that Congress be mindful of several policy choices 
that will enable broadcasters to continue and improve upon this 
important emergency role.
Next Generation TV
    Broadcasters are pleased that the FCC recently approved a joint 
petition of the NAB, Consumer Technology Association, America's Public 
Television Stations and the Advanced Warning and Response Network 
Alliance, requesting permission for stations and television receiver 
manufacturers to voluntarily adopt the world's first Internet Protocol 
(IP)-based terrestrial television transmission standard, ATSC 3.0, also 
known as Next Gen TV. Not only will Next Gen TV allow broadcasters to 
deliver sharp ultra HD images, multichannel immersive sound, 
interactive features and customizable content, but more importantly it 
will enable an even more effective distribution of information to the 
public during disasters and in times of crisis.
    With the advanced alerting capabilities of Next Gen TV, a 
television broadcaster will be able to simultaneously deliver geo-
targeted, rich-media alerts to an unlimited number of enabled fixed, 
mobile, and handheld devices across their entire coverage area. For 
example, and at the consumer's discretion, rather than simply running 
an EAS alert or crawl over regularly scheduled broadcast programming 
for an entire market's viewing audience (and then only reaching those 
who are watching), a Next Gen TV signal could wake up enabled devices 
and reach the entire universe of devices within its television signal 
contour. Using the rich-media capabilities of Next Gen TV, broadcasters 
can provide targeted neighborhood-specific alerts that include text, 
graphics (such as Doppler radar animations or an evacuation route), 
pictures, and even detailed video-on-demand descriptions. The public 
will have access to all of this actionable, life-saving information 
even if the power goes out or cellular wireless networks fail.
    As broadcasters, we are simply planning to use our spectrum 
licenses more efficiently and to better serve our viewers. We are not 
asking for any additional spectrum, Government funds, or mandates. 
Unlike other communications providers, broadcasters are the only 
licensees that must ask the FCC for permission to innovate with regard 
to our transmission standard. However, by adopting Next Gen TV, 
broadcasters will have much greater flexibility to innovate going 
forward. As long as new regulatory hurdles are not placed in our way, 
more and more viewers across the country will benefit from these 
innovations and the advanced emergency alerting systems that Next Gen 
TV will enable.
Spectrum Incentive Auction Repack
    While broadcasters are innovating for the future, there are also 
near-term obstacles that without action could prevent emergency alerts 
from reaching local broadcast viewers and listeners. I'm referring to 
relocating--or repacking--nearly 1,000 broadcast television stations in 
the final and most complicated phase of the broadcast spectrum 
incentive auction. Additionally, in the process of full-power 
television stations moving frequencies, this will also negatively 
impact more than 700 FM radio stations and countless low-power 
television and translator stations that are critical to bringing 
service to rural America. Quite simply, if a television or radio 
station is forced off the air for any period of time due to 
circumstances outside of their control, it will diminish the ability of 
the public to receive critical EAS information.
    FCC Chairman Pai testified before Congress in July that the funds 
originally set aside to reimburse broadcasters for relocating are 
woefully inadequate. Not only does this funding shortfall violate 
Congress' promise to hold broadcasters harmless but, in some cases, the 
shortfall is actually preventing stations from making the advanced 
purchases required to complete their moves in a timely fashion. In 
fact, according to the most recent quarterly status reports filed with 
the FCC, 11 percent of stations changing channels are already behind, 
despite their best efforts to complete their moves. Accordingly, NAB 
supports legislation such as the Viewer Protection Act (H.R. 3347) and 
Radio Consumer Protection Act (H.R. 3685), and urge Congressional 
passage to ensure that your constituents do not lose access to local 
television and radio stations during these mandated frequency moves due 
to a lack of funds or unreasonable time constraints.
FM Chip Activation
    The radio broadcast industry has continued to take a leading role 
in ensuring that a life-saving technology is available to millions of 
Americans through their smartphones. Over the past several years, 
broadcasters developed marketplace partnerships with wireless phone 
manufacturers and providers to turn on--or at least not deactivate--FM 
receivers that are already installed in devices. This endeavor has 
grown exponentially over the past few years and, with one notable 
exception--Apple's iPhone, many Americans are able to access FM radio 
through their smartphones during times of emergency, even when the 
cellular network may be down due to congestion or physical damage.
                               conclusion
    In conclusion, I would like to thank you again for having me here 
today to speak about the critical role that broadcasters play in the 
Emergency Alert System and ensuring the public's safety. This is a 
mission our industry takes very seriously and we have a track record of 
fulfilling. We look forward to working with Congress, State, and local 
governments and other industry partners to strengthen the entire system 
going forward. I look forward to answering any questions you may have.

    Mr. Donovan. Thank you, Mr. Matheny.
    The subcommittee now stands in recess subject to the call 
of the Chair. We will reconvene right after votes. Thank you.
    [Recess.]
    Mr. Donovan. I thank the witnesses for their opening 
statements. I now recognize myself for 5 minutes for 
questioning.
    Mr. Krakauer, I wanted to ask you about New York City 
issuing a wireless emergency alert during the Chelsea bombing, 
which you talked about your opening statement.
    How effective was the tool for New York City and in our 
public service agencies?
    Mr. Krakauer. So I think it was a very effective tool. Our 
first two messages were highly targeted to a several-square-
block area in the Chelsea neighborhood.
    The first message was at the request of NYPD directing 
people in the area to shelter in place when that secondary 
device was discovered. Then the second message went to the same 
area and directed people to shelter in place order had been 
lifted, because the bomb squad from NYPD successfully contained 
that device.
    The challenge we saw with that message is even though we 
highly geotargeted it to the Chelsea neighborhood, we received 
anecdotal reports from other parts of Manhattan, other 
boroughs, one case in New Jersey. So people far outside that 
target area did receive that message.
    That concerns us from a warning fatigue perspective. People 
who receive messages that are not aimed for them or not 
intended for them are more likely to opt-out of the system, 
which is why we have been, you know, encouraged by the FCC's 
latest rules and working with industry on improving 
geotargeting.
    The city-wide message that went out the following Monday 
looking for the suspect ultimately led to his capture, so that 
was a very successful message. Would have been more successful, 
however, if we were able to embed an image in that message as 
opposed to indicating the public should go to the media to see 
the picture.
    Mr. Donovan. Right. As you know, I live in New York City as 
well. We are unique compared to some other geographic areas of 
our country because we have subways.
    Do you find difficulties? Are the alerts effective in the 
subways? I forget how many millions of riders we have every 
day. Because of our subway system, that is also a target for 
potential terrorist attacks. Do you find that the alert system 
is adequate in the uniqueness of trying to push those messages 
out to people who might be riding on our subways?
    Mr. Krakauer. So right now, you know, if you are able to 
get wireless service in your device, which is the case in most 
subway stations, you should receive the WEA message. The 
challenging part would be if you are in between stations where 
there is not wireless service yet, particularly from the 
networks, I know that the MTA is working on improving that.
    That said, we are in touch on a regular basis through our 
emergency operations center watch command with the rail control 
center, so if we do need to get a message to the MTA, we talk 
to them directly dozens of times a day about lots of incidents.
    Mr. Donovan. Mr. Bergmann, can you talk about industry's 
capabilities in, you know, making sure that uniqueness of New 
York City subway riders are protected as well as the people who 
are above ground?
    Mr. Bergmann. So thank you, Mr. Chairman. Certainly happy 
to, and, you know, we continue in the wireless industry to be 
very supportive of the wireless emergency alert program, 
recognizing the important role that it plays.
    You talked a little bit about the importance of that, that 
it played in the Chelsea bombing. In response to that, we are 
continuing to do things to make it even stronger by improving 
the geotargeting, by building in that ability to access 
embedded links so that you can get those kinds of pictures and 
actionable information. So that is very much a focus for us.
    Then in terms of coverage, our Members I know have worked 
closely with the subway authorities and have wireless service 
now in, I think, all 284 of the stations in Manhattan, Queens, 
and the Bronx.
    You know, as Mr. Krakauer said that challenge is inside the 
tunnels and getting access to the tunnels, you know, when the 
trains run, you know, 24/7, to make sure that you can deploy 
there.
    But wireless infrastructure siting is one of our top 
priorities. Making sure that we can build our infrastructure 
out there, to make sure that we get as much coverage and as 
much capacity as possible, is one of our top priorities in the 
wireless industry.
    Mr. Donovan. Thank you. In my last minute, could you talk a 
little bit about, right now, I could send you a photograph of 
my 2\1/2\-year-old daughter. Mr. Krakauer can't shoot out a 
photograph of the Chelsea bomber. What are the obstacles in, 
you know, are we going to be able to overcome those?
    Mr. Bergmann. Sure. So we have certainly strengthened our 
capability with ability to send an embedded link so that you 
can get that picture. Sending it in the message involves 
additional capabilities.
    Part of the way we built WEA is using a different 
technology. It is called cell broadcast technology. We did that 
so that we could make sure that we get the message to as many 
people as possible as quickly as possible. We are talking 
within seconds, not within minutes.
    That is different than a typical text message that you and 
I might send, and if I sent it to three people in this room, 
you might get the text message right away and somebody else 
might get it 5 minutes or an hour later. We want to make sure 
that message gets there immediately. So that has really been 
the focus and the priority.
    Mr. Donovan. My limited understanding, because my VCR still 
flashes 12 back home, is that, and you have to tell some of the 
younger people in the audience what a VCR is. But it is the 
less amount of data in the message will get it out quicker, the 
more complicated the data is, or the more space that it will 
take up, the slower the message delivery is?
    Mr. Bergmann. I think you put your finger on it, and I 
would think about it in two ways. One is the technology was 
built using this this cell broadcast technology that wasn't 
built to incorporate that multimedia, so that is an additional 
capability that we have to build out.
    The second piece is just making sure that we are being 
cognizant of congestion on networks. If we are looking to send 
out a message to 8\1/2\ million people in New York City then we 
want to make sure that then those networks are available to 
contact public safety or to contact their loved ones in the 
case of an emergency.
    Mr. Donovan. Since we only have two other Members to ask 
questions, I am going to take the liberty to ask you one more. 
Are we able to overcome...or are our alerts able to take 
priority in messages, as you are saying the system might be 
clogged with people sending texts to one another, are our 
alerts able to take priority over non-emergency messages?
    Mr. Bergmann. That is exactly right. That is why we built 
this specific technology to make sure that wireless emergency 
alerts get there quickly.
    Mr. Donovan. Thank you very much.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Gaynor and Mr. Krakauer, in the days following the 
false alert in Hawaii last month, we realize that we don't 
necessarily train for mistakes. How are you adjusting your 
training and exercise policies to ensure that people working 
for you understand what to do if a false alert does go out?
    Mr. Gaynor. Thank you, Mr. Payne. We have a generally 
robust training exercise program within the agency and with our 
central partners. This is an opportunity to look at, 
unfortunately, an unfortunate incident in Hawaii and take 
advantage of those lessons learned, and apply them to your 
jurisdiction. So we have gone back to square one.
    We have has those people that are assigned to actually make 
these systems work, have the authority to do it, actually 
monitor how it is done, make sure they know how to do it, make 
sure that if there is a shortfall in understanding of the 
system, and there are many systems that we rely on, that they 
know how to do it. It is readily available. You know, time is 
of the essence when these things happen.
    So we have really doubled down on making sure that we 
really, truly understand the systems, so the hardware, all 
those things that go into it, and really the function of the 
system, because this requires a human in the chain.
    With a human in the chain, there are going to be some 
difficulties with making mistakes. I think the best way to 
avoid mistakes or increase that time is that you have to touch 
it. You have to do it. You have to do it for real. You just 
can't read about it in a book.
    So we are all about training and exercise to make sure we 
can do it, should you ask us in, you know, in a minute or in, 
you know, a month or in a year. We want to be able to do it for 
all flawlessly and seamlessly.
    Mr. Payne. Your training is germane to Rhode Island. With 
what they are doing in Hawaii, would probably you all have 
different policies and training, or is there an overall guide 
to what you should be working on?
    Mr. Gaynor. So I think when it comes to, you know, how we 
interact with the Federal systems, we prescribe to the Federal 
training, Federal exercise and procedures and policy. Every 
State is unique in how they apply that to their jurisdiction.
    I am unfamiliar with the exact protocols that Hawaii had. I 
would imagine that many of these protocols and policies are 
similar throughout the United States.
    But again, I am going to take a guess that every State has 
a unique protocol that they follow. It is up to us as State 
directors to make sure that it is right-sized for your State, 
right-sized for the hazards that you deal with on a daily 
basis, and making sure the public understands when that message 
goes out it is for real.
    Mr. Payne. OK, thank you.
    Mr. Krakauer.
    Mr. Krakauer. Thank you, sir. So with respect to training, 
our public warning team trains on a weekly basis. We call it 
WEA Wednesday in New York City. Every Wednesday, the public 
warning team is required to send out a test message.
    It does not go all the way out to the public. We use FEMA's 
testing system, and wait for the acknowledgment codes back from 
IPAWS.
    With respect to policies and procedures, we view WEA as a 
two-person job in New York City, both during training and 
during live emergency operations.
    There is a public warning specialist who is on the keys 
entering that message, filling out the form to make sure we hit 
all the checkboxes and get all the information necessary so 
that it does go out to the public when an emergency is 
happening. Standing right behind them is an on-duty supervisor 
who is making sure that policy and procedure is being followed 
to the letter.
    Those trainings are custom to the software applications 
that we have in New York City, which are going to be different 
than they have in Rhode Island or different than they have in 
Hawaii.
    There is not one software system that integrates with 
FEMA's system. It is up to local jurisdictions what they 
ultimately purchase.
    Mr. Payne. OK. For you gentlemen, once again, alerts and 
warnings are used to warn the public of both natural and man-
made disasters. When an alert goes out, is it important that 
the follow-up advice Government entities issue is consistent?
    Can you talk about how you coordinate public messaging 
among relevant State and local agencies in neighboring 
jurisdictions when appropriate after an initial emergency alert 
goes out?
    Mr. Krakauer. Sure. So in New York City once we issue an 
alert, you know, a lot of our neighboring jurisdictions also 
received those alerts, either through the IPAWS system or 
through our own distribution list.
    Another system that we have developed is something called 
the Regional Emergency Liaison Team Route, and that is the 
neighboring jurisdictions and emergency managers. It is 
actually a protocol that New York State institutes.
    You know, soon after, or leading up to an emergency, we all 
get on a conference call and share what our individual 
jurisdictions are doing, what our message is, and act as 
consistently as possible.
    Mr. Payne. OK, thank you.
    Mr. Gaynor.
    Mr. Gaynor. The State, we have a policy called the State 
Emergency Notification Policy that has all major stakeholders 
involved. There are certain processes and protocols that we use 
in that, and it is similar to New York.
    I think the first thing we do with key decision makers is 
we have a conference call, whether that is on a telephone or on 
HSIN depending on what the subject matter is and then multiple 
groups within our State system called Code Red, communities 
that we can notify.
    So whether it is local emergency managers, or it is 
hospitals or it is all of them together, with some fidelity, we 
can tailor that message and get it to those groups pretty 
quickly.
    Mr. Payne. OK, thank you.
    Mr. Chair, I yield back.
    Mr. Donovan. The gentleman yields.
    The Chair recognizes the gentleman from Rhode Island, who 
was kind enough to invite Mr. Gaynor to be a member of our 
panel, Mr. Langevin.
    Mr. Langevin. Well, thank you, Mr. Chairman. I want to 
thank you and the Ranking Member for holding this hearing here 
today, and I want to thank our panel of witnesses, thank you 
for your testimony.
    I particularly want to extend a personal welcome to our 
director of EMA, Peter Gaynor, who is doing, in my estimation 
in every measure, an excellent job as our director. It is an 
honor to have you here today.
    Let me start out with Mr. Gaynor and ask him if there is 
anything else you wanted to add. Again, I understand that the 
RIEMA has used its State-wide system Code Red and also IPAWS to 
issue alert warnings as to Rhode Islanders about severe weather 
events.
    Any further description you would like to offer in terms of 
experience with that system to describe RIEMA's use of your 
alerting system and the importance of original alerts and 
warnings to the citizens of Rhode Island?
    Mr. Gaynor. Thank you, Congressman, for inviting me today. 
It is a pleasure to be here. Again, looking at what has 
happened across the country, what happened today, or what 
happened in Hawaii, we want to take advantage of this 
opportunity never to let a crisis go really unused, so we want 
to take advantage of that.
    I have a particular interest now to understand not only 
systems like WEA and EAS, but really how all these systems are 
strung together in a scenario.
    So whether FEMA is announcing some sort of indicational 
warning over the National alert system NAWAS, what does that 
really mean for a State? What actions are they asking us to do? 
What actions are FEMA doing on behalf of the State? How do we 
interact and how do we get that right down to the lowest level?
    So as a State director, I am kinda in the middle between 
the Federal Government and I am talking about a major 
catastrophic event, you know, how do you, you know, meld those 
two worlds together to make sure you save time, you get a clear 
concise message to everyone that is affected so they can take 
proactive protective measures to save themselves, their 
families and their community?
    Mr. Langevin. Thank you. Thank you.
    Again, to you, Mr. Gaynor, and it is certainly our 
witnesses are also welcome to comment. But obviously 
cybersecurity risk remains one of the risks that Rhode Island 
and probably most of the States is least prepared to mitigate, 
given the challenges associated with it.
    How could an incident targeting our emergency management 
systems, including alerts and warning systems, affect your 
agency's ability to operate?
    Mr. Gaynor. I think it is everyone's worst nightmare that 
you cannot use these systems that we rely on every day. You 
know, the cell phone is, you know, everyone has one, it is how 
we communicate.
    The question that I have been asked by my staff, my fellow 
directors in New England and others is, you know, what happens 
if we cannot communicate via these things that operate 
perfectly in a blue-sky scenario?
    How do you actually take those alert warnings and get them 
down to the local taxpayer or resident in your community? How 
do you do that? I am not sure I have the answer. I think one of 
the gentleman up here is the backbone of how we do it now is 
the radio system and that is it.
    But should the radio system fail, what is next? I think we 
probably have to take a deeper look into that. I think cyber is 
a threat that is here to stay. It is touching every system that 
we build, and we probably have to take a real hard look about 
if all that fails what are we going to do.
    Mr. Langevin. Sure, good points, and it is one of my worst-
case scenarios, too, and things that keep me up at night as 
well.
    Let me turn to Mr. Bergmann and Mr. Matheny. While the 
alert in Hawaii last month originated from an authorized 
sender, alert disseminators like broadcasters and wireless 
providers are not immune, certainly, from unauthorized use of 
warning systems.
    This was demonstrated in 2013 when pranksters actually 
hacked the emergency alert systems of local broadcasters in at 
least two States and issued false alerts about an impending 
zombie apocalypse. Obviously these alerts were swiftly 
debunked, but the potential remains to severely undermine trust 
in the system.
    So to that point, you know, what are the members of your 
organizations doing to secure alert systems like EAS or WEA and 
the new ATSC 3.0 standard from unauthorized access including by 
cyber beings? Anything you want to comment there?
    Mr. Matheny. Sure, I will. It is OK? I will start. We 
certainly take cybersecurity very seriously and as an 
organization we have been working with our members and we have 
formed a cybersecurity task force. This is a group of CIOs and 
chief information security officers that meet regularly to 
share best practices.
    We have also had numerous seminars and webinars educating 
our members on good practices. We have a member portal that we 
have set up that has access to different resources and we are 
in the process of developing a more extensive educational 
program.
    We really encourage the use of the NIST framework, which 
really plays on a lot of things around, let us refer to a cyber 
hygiene, the idea of managing your passwords in a correct way, 
of setting up your equipment around and behind appropriately 
configured firewalls and protected networks, as well as who has 
physical access to the equipment.
    So we are working quite diligently to make sure that folks 
are engaged on cybersecurity and creating the most secure as 
possible systems.
    Mr. Bergmann. Thank you, Congressman. For the wireless 
industry, security is amongst our highest priorities. So we are 
very focused on protecting against cybersecurity threats and I 
would really say on a 24/7/365 basis.
    We know that those threats continue to evolve, but our 
members are very, very focused on it in terms of their everyday 
practices, the equipment they deploy, the practices that they 
use, the personnel, and they also embrace the NIST 
cybersecurity framework as well, too, and have worked within 
CTIA.
    We have a cybersecurity working group that convenes 30 
members to share best practices, to share information. They are 
very oriented around risk assessment and risk management so we 
work together to try to address those issues. We also work 
closely with our partners in the Federal Government as well, 
too.
    We worked closely with the FCC's CSRIC Advisory Committee 
to look at threats to the alerting systems. Of course, 
coordinate very closely with our partners at DHS on a daily 
basis to try to make sure that we are assessing and 
appropriately responding to any threats.
    Mr. Langevin. Very good. Well, my time has expired, but I 
want to thank all of our witnesses for testifying here today. 
Thank you for your insight and your input and for the job you 
are doing to keep people safe. Thank you.
    I yield back the balance of my time.
    Mr. Donovan. Gentleman yields. Because you came all the way 
here and your expertise is so valuable to us, we each want to 
ask one more question. This committee has always had action 
items after our hearings. We don't just gather testimony, we 
actually do something with the information that you provide us 
with.
    So to everyone on the panel, I would just like to ask, what 
would you like to see this committee do? Whether it be in the 
area of emergency management responding, whether it be in the 
area of wireless or in broadcasting, what could this committee 
do to help you to protect the citizens of this Nation, better 
than we are already protecting them? Mr. Matheny.
    Mr. Matheny. Sure, thank you very much. I think if I had 
one ask to make it would be to ask for your support of the 
Viewer Protection Act. As I mentioned earlier, we are in the 
process of the repack.
    We have got over 1,000 TV stations moving, 700 radio 
stations that are going to be impacted and in the context of 
what we are talking about today, those are all emergency alert 
providers. They are all part of this system and we cannot 
afford to have any of them taken off-line because of time line 
that is unreasonable or because of lack of funding.
    Chairman Pai has testified that there is a significant 
shortfall in funding and we also believe that, probably to the 
tune of about $1 billion. So we would love to see support for 
the Viewer Protection Act.
    Mr. Donovan. Thank you, sir.
    Mr. Bergmann.
    Mr. Bergmann. Mr. Chairman, I would highlight three things 
for you. The first is Congress has a unique role in making more 
spectrum available for use by the wireless industry and that is 
really key to increasing capacity.
    The second is Congress also plays a key role in terms of 
promoting infrastructure deployment. So we talked a little bit 
about coverage earlier. By enabling the wireless industry to 
build out that next generation of wireless networks, which is 
based on small cells, we can again increase that ability to 
target those messages.
    Last, I think we are all interested and invested in making 
sure that we are exchanging best practices, that alert 
originators have access to all of the information about the 
tools that are available, and so working together to promote 
those kinds of best practices would help as well.
    Mr. Donovan. Thank you very much.
    Mr. Gaynor.
    Mr. Gaynor. I will go back to my training exercise theme. I 
think in the past we have tested systems to see if the systems 
worked, can you get that message from point A to point B, and I 
think that is important. So I would like to see more scenario-
based alert warning training and exercises.
    Again, you can do it for a State, you can do it for a 
region, you can do it for the country and pick a scenario that 
is applicable and run that through the entire course, right?
    Make sure it works from beginning to end, through all the 
systems and prove that you can get that message out should a 
local, State, or Federal Government need to do it. So again, 
more realistic training I think is what I would like to see.
    Mr. Donovan. Thank you, sir.
    Mr. Krakauer.
    Mr. Krakauer. Mr. Chairman, I would highlight two things. 
The first, you know, we thank you and the Members of the 
subcommittee for your continued support of the Urban Areas 
Security Initiative and preserving that money.
    We think in light of today's threats it is very important 
that that money continue not to just be preserved, but 
increased in lots of areas, but certainly in terms of public 
warning.
    The other thing I would note to the committee is that the 
situation in Hawaii highlighted a good question for us as local 
emergency managers is, are State and local governments the 
right avenue to respond to a National threat from a state 
actor?
    We think that the Federal Government should look at making 
that a Federal responsibility as part of whether it is FEMA or 
the Homeland Security or the Department of Defense, the Federal 
Government really is in the best position to detect a threat 
from a State actor and issue warnings initially to the general 
public.
    Time is of the essence and, you know, State and local 
authorities are not really in the best position to make those 
notifications.
    Mr. Donovan. I thank you all for your testimony, your 
candid answers to my questions and the rest of the panel. I 
want to thank each of you for your dedication, commitment to 
the safety of our Nation. Chair now recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Bergmann, as you know, mobile customers are able to 
opt-out of most WEA alerts.
    As I mentioned in my opening statement, I am concerned that 
the false alerts and alert fatigue could in fact lead to people 
to opt out of WEA alerts. Today, Mr. Krakauer suggested that 
Congress eliminate the opt-out option. Does CTIA agree?
    Mr. Bergmann. So thanks, Mr. Congressman. So you are 
exactly correct. Today consumers are able to opt out of amber 
alerts and imminent threat alerts, but not Presidential alerts 
and that is part of the Warning Act.
    I think from our perspective, you know, we would defer to 
policy makers on the appropriateness of opt-in versus opt-out. 
I think we would like to see consumers use wireless emergency 
alerts. We recognize that they want access by their wireless 
device and they recognize how valuable that is.
    So our goal has been to try to make sure we do everything 
that we can to minimize alerting fatigue and to make sure that 
the system has trust and confidence and we will do everything 
that we can to execute on that.
    Mr. Payne. OK. In the mean time, what are your members 
doing to educate customers on the value of the warnings and 
alerts?
    Mr. Bergmann. Sure, so we certainly work closely with the 
FCC, with FEMA, in terms of education efforts. We have done a 
PSA at CTIA to try to let folks know about it.
    I think the good news is that you have subscribers 
representing 99 percent of the overall U.S. subscribership that 
get their service from a wireless provider who voluntarily 
participates in WEA.
    Mr. Payne. OK, well I thank you, all of you for being here, 
for your testimony. It has been very valuable. As the Chairman 
said that we will be using this information to craft 
legislation in the future. So with that I yield back.
    Mr. Donovan. Gentleman yields. Thank you, Mr. Payne.
    The Chair recognizes--nope. The Chair recognized that Mr. 
Langevin has left. I want to thank all witnesses for their 
valuable testimony and the Members of my committee for their 
insightful questions.
    The Members of the subcommittee may have additional 
questions for the witnesses and we will ask you to respond to 
those in writing. Pursuant to committee rule VII(D) the hearing 
record will remain open for 10 days. Without objection, the 
committee stands adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
